        December 30, 2003




 Logistics
 Defense Reutilization and
 Marketing Services Commercial
 Venture Contracts for Privatization
 of the DoD Surplus Sales Program
 (D-2004-037)




This special version of the report has been revised to omit contractor proprietary data.




                         Department of Defense
                     Office of the Inspector General
   Quality                             Integrity                    Accountability
  Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CCLI                 Commercial Control List Item
CV                   Commercial Venture
DCIA                 Defense Logistics Agency Criminal Investigations Activity
DLA                  Defense Logistics Agency
DRMO                 Defense Reutilization and Marketing Office
DRMS                 Defense Reutilization and Marketing Service
FAR                  Federal Acquisition Regulation
IG DoD               Inspector General of the Department of Defense
MLI                  Munitions List Item
NAACS                National Association of Aircraft and Communication Suppliers,
                        Incorporated
NSN                  National Stock Number
          Office of the Inspector General of the Department of Defense
Report No. D-2004-037                                                December 30, 2003
   (Project No. D2002CH-0030)

        Defense Reutilization and Marketing Services Commercial
                  Venture Contracts for Privatization
                   of the DoD Surplus Sales Program

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed logistics
personnel who are interested in the privatization of sales of DoD surplus property should
read this report. The report discusses the overall performance of the commercial venture
program, reutilization of surplus property, end-use certificates for surplus property,
controls over noncompetitive sales of surplus property, and payments to a financial
advisor.

Background. We performed the audit in response to a request from Representative
John M. McHugh. Subsequently, Senator John W. Warner also requested we review the
commercial venture contract. The request was based on allegations from a constituent
who stated that the Defense Reutilization and Marketing Service (DRMS) commercial
venture contract was not cost effective to the Government. The DRMS commercial
venture program links Government and private industry for selling DoD surplus property
and is structured as a term sales contract awarded under the provisions of the Federal
Property Management Regulations. The Federal Acquisition Regulation does not apply
to the sales contract. On July 14, 1998, DRMS awarded the first 5-year commercial
venture program contract, CCand on June 13, 2001, DRMS awarded a 7-year second
commercial venture contract.
Results. The commercial venture program represents a new way of doing business for
the DoD but needs some improvements. Inconsistent and questionable data made
evaluating the financial results of the commercial venture program difficult. However,
available data does show that the financial results improved during the first half of
FY 2003. DRMS should establish adequate controls over contractor costs, establish
contractor performance metrics that evaluate factors similar to other commercial
businesses, and determine whether the commercial venture is achieving desired goals.
See finding A for details of the results and recommendations.

The Defense Logistics Agency (DLA) was purchasing new property items to fill
requisitions while the same property items, in new or unused condition, were being
disposed and sold to the commercial venture contractor. DoD could have avoided costs
of about $9.2 million if property items were used to fill open requirements instead of
being disposed and could increase revenues up to $18.7 million if disposed property
items with less than 3 years in inventory were sold back to DoD by the commercial
venture contractor before being placed on auction. DLA should implement a standard
material recoupment program, require personnel to screen new or unused property for
open requirements, and modify the contract to allow screening property items for DoD
demand and resale to DoD. See finding B for details of the results and recommendations.

The Defense Logistics Agency Criminal Investigations Activity experienced significant
delays in processing end-use certificates from customers of the commercial venture
contractor, and the commercial venture contractor stated that sales of applicable items
were impaired and that they were incurring additional costs for storing and handling the
unsold items. As a result, DRMS revenue decreased an unknown amount, including
approximately $1.07 million that the contractor attributed to the additional costs, from
November 2001 to March 2003. Keeping security concerns in mind, DLA should
eliminate the backlog of unprocessed certificates and prevent any future backlogs. See
finding C for details of the results and the recommendation.

Although the contractor reduced the amount of noncompetitive and reduced-competition
sales to about $0.2 million for the first half of FY 2003, sales below the market value
may occur. As a result, DRMS may receive less revenue from noncompetitive and
reduced-competition sales. Therefore, DRMS should monitor the dollar level of these
sales for any significant increase and include the sales category in reviews of the
commercial venture program. See finding D for details of the results and
recommendations.

The commercial venture contractor may continue to pay the financial advisor
2.25 percent of the DRMS share of revenue for all 7 years of the second commercial
venture contract rather than the 5 years required by the financial advisor contract. As a
result, the financial advisor may receive payments longer than what was agreed, with a
possible cost to DRMS of about $1.13 million. DRMS should require that the contractor
stop making payments to the financial advisor effective June 13, 2006, in accordance
with the financial advisor contract. See finding E for details of the results and the
recommendation.

In response to the concerns of a small business trade organization, we determined that the
commercial venture program does not appear to have an adverse effect on small business
activity. See Appendix C for additional details.

Management Comments and Audit Response. The Deputy Director, Logistics
Operations, Defense Logistics Agency agreed to improve oversight of contractor costs,
address contractor metrics in the next solicitation, implement a standard material
recoupment program, eliminate the backlog of unprocessed end-use certificates, monitor
noncompetitive sales and stop making payments to the financial advisors in 2006. The
Deputy Director disagreed with modifying the contract to allow screening of property
items for potential resale to DoD, and modifying future solicitations to require oversight
to noncompetitive sales. We do not agree that modifying the contract to allow the
contractor to screen property for demand and resale to DoD distorts the incentives the
contract is built on, and we do not agree that requiring minimum documentation and
approval requirements for noncompetitive sales will detract from best business practices.
Accordingly, we request the Director, Defense Logistics Agency provide comments on
the final report by February 27, 2004. See the Findings section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents
Executive Summary                                                            i

Background                                                                  1

Objectives                                                                  4

Findings
     A.    Financial Results of the Commercial Venture Program               5
     B.    Disposal of Property Items with Demand Requirements              20
     C.    Processing of End-Use Certificates                               29
     D.    Controls Over Noncompetitive and Reduced-Competition Sales       32
     E.    Payments on Financial Advisor Contract                           36

Appendixes
     A. Scope and Methodology                                               38
          Management Control Program Review                                 39
          Prior Coverage                                                    40
     B. Responses to Issues Raised by a Small Business Trade Organization   41
     C. Contractor Perspective on the Commercial Venture Program            45
     D. Report Distribution                                                 46

Management Comments
     Defense Logistics Agency                                               49
Background
    We performed this audit as a followon to a prior audit that Representative
    John M. McHugh requested. The request was based on two issues that
    Representative McHugh received from a constituent. The first issue related to the
    Office of Management and Budget Circular No. A-76 public/private competition
    for providing logistics services at 10 Defense Reutilization and Marketing
    Offices. The issue was not substantiated in the Inspector General of the
    Department of Defense (IG DoD) Report No. D-2002-043, “Defense Reutilization
    and Marketing Service Public/Private Competition,” January 25, 2002. The
    second issue the constituent raised related to the costs of the Defense Reutilization
    and Marketing Service (DRMS) commercial venture contract. This report
    addresses that issue in finding A.
    In addition, Senator John W. Warner requested that the IG DoD look into
    allegations concerning the DRMS cost of transporting items to regional centers
    for demilitarization and the impact that changes in DRMS operations for selling
    excess property and scrap will have on small businesses. A subsequent meeting
    with personnel from both Senator Warner’s office and the Senate Armed Services
    Committee resulted in a request to assess the adequacy of the sales contracting
    method DRMS used for selling DoD surplus property through a contractor. The
    initial allegations were not substantiated in IG DoD Report No. D-2002-025,
    “Allegations Concerning Defense Reutilization and Marketing Service Business
    Practices,” December 17, 2001. This report addresses the adequacy of the sales
    contracting method in both finding A and finding D.

    Defense Reutilization and Marketing Service. DRMS is a component of the
    Defense Logistics Agency (DLA), which provides logistical support for not only
    peacetime and wartime operations but also emergency preparedness and
    humanitarian missions. DLA supplies the Services and several civilian agencies
    with the resources they need for critical missions throughout the world.
    Any property that the Services determine exceeds their needs is sent to DRMS.
    Excess property can either be redistributed within DoD or transferred to other
    Federal agencies. Property not redistributed or transferred is designated surplus.
    Surplus property can be donated to eligible entities, such as state and local
    Governments. Any property that remains may be sold to the general public.
    DoD Manual 4160.21-M, “Defense Materiel Disposition Manual,” August 18,
    1997, requires that personal property (including scrap) shall be disposed of in a
    manner that obtains optimum monetary return to the Government for property
    sold. The manual also states that DRMS has the primary role of obtaining
    satisfactory sales results and that DRMS shall employ the most efficient and
    economical methods of selling personal property.

    DRMS Operations. In 1992, DLA directed that DRMS become self-sufficient
    by balancing sales revenue and overall operating costs. Because the Federal



                                         1
    Government was moving in a new direction and involved in a “reinvention” of
    Government, DLA had the opportunity to explore various alternative business
    practices.

    The Deputy Secretary of Defense approved the DRMS Enterprise Management
    business philosophy in February 1996. The philosophy allowed DRMS to
    selectively privatize its operations and work with industry to incorporate private
    sector management approaches. Then, in June 1996, DRMS was allowed to
    explore using the private sector to sell excess DoD material.

Commercial Venture Program
    Financial Advisor Contract. DRMS awarded contract number
    SP4410-97-C-1000 on December 18, 1996, to Kormendi-Gardner Partners.
    Kormendi-Gardner Partners would serve as a financial advisor to help DRMS
    explore ways of using the private sector for selling excess DoD property.
    Kormendi-Gardner Partners provided financial advisory services, which included
    helping DRMS structure commercial venture transactions. The contract required
    that Kormendi-Gardner Partners receive 2.25 percent of the net proceeds DRMS
    received for 5 years from the start of the commercial venture program. The
    commercial venture contractor, not DRMS, makes the payments to
    Kormendi-Gardner Partners.

    Commercial Venture Program Award. The commercial venture program was
    awarded as a term sales contract under the provisions of the Federal Property
    Management Regulations; therefore, the Federal Acquisition Regulation (FAR)
    does not apply. However, the commercial venture program is actually a
    net-proceeds-sharing contract, with a residual interest retained by DRMS. The
    program links DRMS and private industry to sell DoD surplus property and is part
    of the DoD infrastructure-reduction effort. A key aspect of the program is the
    intended alignment of financial interests between the private industry contractor
    and DRMS. The contractor purchases the DoD surplus property from DRMS for
    a low percentage of the original acquisition value. When the property is sold,
    DRMS receives a significant percentage of the net proceeds.

           Original Commercial Venture Contract. DRMS designated 312
    Federal supply classes of property items for the first commercial venture program
    (CV1). DRMS awarded contract number 97-7005-0002 as a 5-year contract to
    Levy/Latham, LLC (later SurplusBid.com, Incorporated) on July 14, 1998.
    Levy/Latham, LLC was required to form a single-purpose Subchapter S
    Corporation or limited liability company, designated “the Purchaser.”
    Levy/Latham, LLC formed Levy/Latham Global, LLC (Levy/Latham Global) to
    meet this requirement. Levy/Latham Global was responsible for purchasing
    property, managing and disposing of property, and managing the financial affairs
    including receipts, payments, accounting systems, cash flow management, audits,
    and cash distributions to Levy/Latham, LLC and DRMS.

           Follow-on Commercial Venture Contract. As a follow-on to CV1,
    DRMS designated an additional 342 Federal supply classes of property items for a
    second commercial venture contract (CV2). DRMS anticipated that the

                                         2
           contractors for CV1 and CV2 as well as the Federal supply classes would merge
           into one commercial venture contract upon conclusion of CV1, whether that
           occurred at the scheduled date or earlier.

           On June 13, 2001, DRMS awarded contract number 99-0001-0002 as a 7-year
           contract to Surplus Acquisition Venture, LLC (Surplus Acquisition Venture).
           Like Levy/Latham, LLC, Surplus Acquisition Venture was required to set up a
           separate single-purpose Purchaser. That single-purpose purchaser was
           Government Liquidation.com, LLC (Government Liquidation).

           On April 19, 2001, Government Liquidation entered into an agreement to
           purchase, for $*1, SurplusBid.com, Incorporated and for $*1, Levy/Latham
           Global. As anticipated in the solicitation, Government Liquidation, along with its
           parent company, Surplus Acquisition Venture, became the sole commercial
           venture contractor, and the CV1 Federal supply classes were incorporated into the
           CV2 contract, for a total of 654 Federal supply classes.

           Financial Transaction Flow in the Commercial Venture Contracts. DRMS
           receives income from the commercial venture program two ways.

                   Initial Contract Payments. At least twice each month, DRMS identifies
           the property to be sold under the CV2 contract, and Surplus Acquisition Venture
           buys the property at the established percentages in the CV2 contract, which range
           from 0.00005 to 0.007066 of the original acquisition cost. For items identified
           with a National Stock Number (NSN), DRMS obtains the acquisition value
           recorded for the NSN from centralized Federal procurement records. For other
           items, the activity disposing of the item provides DRMS with the acquisition
           value based on the recorded original procurement cost or on the estimated
           replacement cost. That initial payment is split 97.75 percent to DRMS and
           2.25 percent to Kormendi-Gardner Partners, who is the financial advisor. Under
           CV2, Surplus Acquisition Venture transfers the total purchase price to
           Government Liquidation, and Government Liquidation distributes the respective
           shares to DRMS and the financial advisor, as shown in Figure 1.


                                                                                DRMS
                                                                          5%
                                                                     7 .7
                      Surplus                                      9
                                      100%      Government
                     Acquisition
                                                Liquidation
                      Venture
                                                                   2.
                                                                    25




                                                                                Kormendi-
                                                                       %




                                                                                 Gardner
                                                                                 Partners


           Figure 1. Distribution of the Initial Payment for the Surplus Property


1
    This figure represents contractor proprietary data that has been deleted.

                                                         3
            Sale of DoD Surplus Property. DRMS literature generally states that
    DRMS receives 80 percent of the monthly net proceeds from the sale of property
    and that the commercial venture contractor receives 20 percent. Government
    Liquidation sells the property, collects the funds, and pays for all the direct and
    indirect costs associated with selling the property. Each month, Government
    Liquidation distributes net proceeds from the sales after costs based on its cash
    balance, less certain adjustments such as estimated cash needs for the next month.
    The financial advisor is entitled to 2.25 percent of the DRMS proceeds; therefore,
    the financial advisor receives 2.25 percent of the DRMS 80 percent, or 1.8 percent
    of the cash to be distributed. As a result, DRMS actually receives 78.2 percent of
    the cash to be distributed. Figure 2 shows the distribution of adjusted net
    proceeds from the commercial venture program. Surplus Acquisition Venture’s
    overall profit is the 20-percent contractor distribution minus the initial payment
    for the property.


                                              Surplus
                                             Acquisition
                                              Venture
                                %
                              20




             Government         78.2%
             Liquidation                      DRMS


                                                                  80%
                               1.
                                 8%




                                             Kormendi-
                                              Gardner
                                              Partners




    Figure 2. Monthly Distribution of Adjusted Net Proceeds from the
    Commercial Venture Program

Objectives
    Our overall audit objective was to evaluate whether the DRMS commercial
    venture contracts for privatization of the DoD surplus sales program were
    providing the best value for DoD. A secondary objective was to evaluate whether
    privatization of the program had adversely affected small businesses that
    purchase, sell, and operate military surplus aircraft parts businesses. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology, our review of the
    management control program, and prior coverage related to the objectives. See
    Appendix B for the results of the secondary objective.


                                         4
                    A. Financial Results of the Commercial
                       Venture Program
                    Inconsistent and questionable data made evaluating the financial results of
                    the commercial venture program difficult. Available data show that
                    program costs have increased from $37.6 million in FY 1997 to
                    $39.1 million in FY 2002 while the acquisition value of surplus materiel
                    available for disposal decreased from $5.3 billion to $1.9 billion. Also,
                    DRMS net profit decreased from $90.3 million in FY 1997, or
                    1.71 percent of the acquisition value of materiel, to $8.3 million, or
                    0.43 percent of the acquisition value of materiel in FY 2002. Evaluating
                    the program was difficult because controls over contractor costs were
                    limited, contractor selection criteria were ineffective, and performance
                    metrics were inadequate. As a result, to effectively monitor performance
                    of the commercial venture program, contractor costs need to be closely
                    monitored, selection criteria need to be evaluated and revised, and
                    effective performance metrics need to be developed.

Financial Results of the Commercial Venture Program
           Inconsistent and questionable data made evaluating the financial results of the
           commercial venture program difficult. We calculated and compared commercial
           venture program gross rates of return, costs, and DRMS profit as a percentage of
           sales and as a percentage of acquisition cost for FY 1997, FY 1998, FY 2001,
           FY 2002, and FY 2003. DRMS was the source for all pre-commercial-venture
           figures, including the sales revenues and acquisition value of items sold by
           DRMS, and of the associated DRMS costs both before and after the start of the
           commercial venture program. The solicitation for the second commercial venture
           contract also had sales revenues and associated acquisition values for FY 1997
           and FY 1998. DRMS was not able to reconcile significant discrepancies between
           the solicitation figures and the figures they provided for us. For that reason, we
           are presenting gross rates of return for FY 1997 and FY 1998 using both sets of
           figures. However, because the solicitation does not contain any associated DRMS
           costs, we were not able to use the solicitation figures in our other analyses.

           Gross Rates of Return Under CV2. Depending on the source, the CV2 results
           look comparable to or better than the FY 1997 and FY 1998 results from the point
           of view of gross rates of return. A gross rate of return is the ratio of the sales
           proceeds to the original acquisition value of the items sold. The average gross
           rate of return that DRMS achieved for FY 1997 and FY 1998 was 2.24 percent for
           CV2 items using the figures DRMS prepared for us, comparable to the *2 percent
           achieved by the CV2 contractor through March 2003. Using the solicitation
           figures, the CV2 figures were considerably better than the average 1.73 percent
           for FY 1997 and 1998. Table 1 shows both comparisons with the gross rates of
           return by fiscal year.


2
    This figure was calculated using contractor proprietary data and has been deleted.

                                                        5
                      Table 1. Commercial Venture Program Gross Rates of Return
                                                  CV2 Federal Supply Class Items

                                               DRMS Figures,          Solicitation,
                                                Gross Rate of         Gross Rate of
             FY                                Return (percent)      Return (percent)
           DRMS
            1997                                    2.42                   1.90
            1998                                    2.06                   1.55
           DRMS Average1                            2.24                   1.73

           Commercial Venture

            20011                                     *3
            2002                                      *3
           1st half 2003                              *3
           Contractor Average2                        *3
           1
               Last 3 months considered CV2.
           2
               Average percentages based on whole percentages and weighted for partial years.

           Commercial Venture Program Costs. While DRMS costs have decreased,
           overall CV2 program costs were higher than DRMS costs in FY 1997 and
           FY 1998. In addition, CV2 program costs as a percentage of sales or as a
           percentage of acquisition value had also increased. However, costs as a
           percentage of sales and costs as a percentage of acquisition value were improving
           and all DRMS costs did not directly apply to the CV2 program. Although DRMS
           personnel stated that segregating costs not related to the CV2 program (managing
           hazardous material and demilitarization material) was not possible, the same costs
           were included in both comparisons. Program costs consist of DRMS costs,
           contractor costs, and proceeds shared with Surplus Acquisition Venture and the
           financial advisor. Table 2 shows that while DRMS costs have decreased, overall
           program costs as a percentage of sales or of acquisition value have increased
           under CV2. However, the CV2 program costs as a percentage of sales declined in
           FY 2003, and that trend may continue.




3
    This figure was calculated using contractor proprietary data and has been deleted.

                                                           6
                                Table 2. Commercial Venture Program Costs
                         DRMS        Contractor   Proceeds         Total       Costs as    Costs as
                          Costs        Costs       Sharing         Costs      Percentage Percentage of
                FY      (millions)   (millions)   (millions)     (millions)    of sales   Acq Value

           Prior to CV Program
            1997        $37.6           $0           $0             $37.6        29.4%        0.71%
            1998         33.4            0            0              33.4        30.4%        0.62%

           CV2
            20011            4.8        *4            *4             *4          *4          *4
            2002            12.6        *4            *4             *4          *4          *4
            20032           10.2        *4            *4             *4          *4          *4
           1
               3 months costs after CV2 started in June 2001.
           2
               CV2 costs annualized based on first 6 months of FY 2003.


           In Table 2 above, the DRMS costs cover more than just the costs related to the
           commercial venture program. DRMS personnel also told us they had no way of
           determining what portion of their costs applied to the sale of comparable items
           before the commercial venture program or of the remaining DRMS expense of
           running the commercial venture program. Therefore, all of the DRMS costs
           above are the total costs DRMS reported to us related to sales of all material
           except scrap and are overstated. In addition, we also calculated the commercial
           venture program costs completely omitting the overstated DRMS costs from the
           above analysis for FY 2001 through FY 2003, thus giving the commercial venture
           program the maximum benefit of the doubt, and costs as a percentage of sales
           were 72.8 percent, 60.8 percent, and 49.4 percent, respectively. The percentages
           were still significantly higher than the percentages prior to the commercial
           venture program.

           CV2 Net Profit to DRMS. Figure 3 shows a comparison of DRMS profit from
           FY 1997 and FY 1998 with the results of the CV2 program in FY 2002 and
           FY 2003 (data for first 6 months of FY 2003 annualized).




4
    This figure was calculated using contractor proprietary data and has been deleted.

                                                           7
                 C




                                                     140

                                                                                                                ■DRMS Profit
                                                     120
                                                                                                                □Contractor Costs/Payments
                                                                                                                ■DRMS Costs
                             Dollars (in millions)




                                                                                                                ■Data Not Available
                                                     100


                                                      80


                                                      60


                                                      40


                                                      20


                                                      0

                                                      1997                    1998       Fiscal Year              2002                                                 2003

                                       $5,282.5                            $5,347.9                       $1,920.5                                                  $2,517.7
                     C




                                                                          Acquisition value of items sold (millions)
                     Figure 3. Profits Have Decreased Under the CV2 Program, but the Decline
                     in Quality of Items to Sell and Other Factors Contributed to the Decrease

                     Table 3 shows the actual numbers underlying the above figure and emphasizes
                     DRMS profit as percentages of sales revenue and acquisition value.

                                                     Table 3. DRMS Profit as Percentages of Sales and Acquisition Value
                                                                                           FY 1997 FY 1998 FY 2002 FY 2003
                                                                                           U           U   U           U   U                 U   U




                             Acquisition Value of Items Sold                               $5,282.5 $5,347.9 $1,920.5 $1,258.9
                             DRMS Sales Revenue                                               127.9    109.9
                             Contractor Sales Revenue                                                            *5       *5       TP   PT                P    P




                             Initial Payments from Contractor                                                                  *5  P    P             *5  P    P




                             DRMS Proceeds Share from Contractor                                                               *5  P    P             *5  P    P




                             Other DRMS Proceeds from Contractor                                                               *5
                                                                                                                               U   UP   UP            *5
                                                                                                                                                      U   UP   UP




                             Total DRMS Contract Proceeds                                                                      *5  P    P             *5  P    P




                             DRMS Costs                                                         37.6            33.4           12.6                    5.1
                             DRMS Net Profit1                   P   P                          $90.3           $76.5           $8.2                  $11.1

                             DRMS Net Profit as a
                              Percentage of Sales                                               70.6%           69.6%          18.9%                  37.8%

                             DRMS Net Profit as a
                              Percentage of Acquisition Value                                    1.7%            1.4%              0.4%                   0.9%
                     1
                     PDRMS sales revenue minus DRMS costs for FY 1997 and 1998. Total DRMS contract
                         P




                     proceeds minus DRMS costs for FY 2002 and 2003.



5
TP   TP   This figure was calculated using contractor proprietary data and has been deleted.

                                                                                     8
                 Although the DRMS costs above are overstated, the rates of return on acquisition
                 value are still lower than before under the commercial venture program without
                 counting the DRMS costs for the commercial venture years. The FY 2002 and             C




                 FY 2003 profits would be 1.1 percent and 1.3 percent, respectively, without
                 counting the DRMS costs, and would actually be lower because of the effect of
                 the unknown DRMS costs. These are lower than the above 1.7 percent and
                 1.4 percent for FY 1997 and FY 1998, which we know are actually higher
                 because the overstated DRMS costs are used in those calculations.

Controls Over Contractor Costs
                 Applicable Guidance. The CV2 contract was structured as a term sales contract
                 under the provisions of the Federal Property Management Regulation, which does                C




                 not address contractor costs. Although the FAR does not apply to the sales
                                                                     C




                 contract, the commercial venture arrangement has characteristics of a cost
                            C




                 reimbursement contract. The Government does not reimburse the contractor for
                                                             C




                 costs, but the contractor is able to deduct costs from sales proceeds in determining
                 the amount to be distributed, of which the DRMS share is 78.2 percent. The                    C




                 result is the same as if the Government reimbursed the contractor for 78.2 percent
                 of costs; therefore, the Government has a similar interest in controlling the
                 contractor costs, as it would have in a cost reimbursement contract. The FAR              C




                 contains guidance specifically applicable to cost reimbursement contracts,                        C




                 including contractor costs.                     C




                 Alignment of Financial Incentives. As explained in the background, the
                 alignment of financial incentives can be expected to exert some control over
                 contractor costs. However, the contract also requires that DRMS provide some
                 oversight, and that the oversight cannot be effective if no guidance on reasonable
                 costs exists.  C




                 Merger and Acquisition Costs. On April 19, 2001, Government Liquidation
                 entered into an agreement to purchase the parent company of CV1,
                 SurplusBid.com, Incorporated, for $*6 and the CV1 subsidiary, Levy/Latham
                                                                             TP   PT




                 Global, for $*6. According to the two purchase agreements, the purchase prices
                                        P   PC




                 were each to be paid in 33 installments. The $*6 paid for SurplusBid.com,
                                                                                       C       P   P




                 Incorporated was payable entirely to the CV1 contractor and included “the assets
                 comprising the surplus sales and marketing business” of SurplusBid.com,
                 Incorporated. The $*6 paid for Levy/Latham Global was split 20 percent to
                                    C                P   P




                 SurplusBid.com, Incorporated, 78.2 percent to DRMS, and 1.8 percent to the
                 financial advisor and included “the assets comprising the surplus sales and
                                                 C




                 marketing business” of Levy/Latham Global. The assets included but were not
                                                                                           C




                 limited to unsold inventories. The DRMS sales contracting officer approved
                                                                         C




                 inclusion of the amounts as direct costs under the CV2 contract in a letter dated
                 June 15, 2001.




6
TP   TP   This figure was calculated using contractor proprietary data and has been deleted.

                                                                             9
           FAR 31.205-27, “Organization Costs,” prohibits merger and acquisition costs and
           states:
                         . . . expenditures in connection with (1) planning or executing the
                         organization or reorganization of the corporate structure of a business,
                         including mergers and acquisitions . . . are unallowable.

           However, because the commercial venture program was awarded as a sales
           contract that the Federal Property Management Regulation governs, the sales
           contracting officer allowed the costs to be included as direct costs of the CV2
           contract.

           The purchase of Levy/Latham Global did not have a net effect on DRMS because
           DRMS received the same 78.2 percent of the $*7 that it would have received if the
           $*7 direct cost did not exist. For example, assuming sales were $10 million and
           direct costs, including the $*7, were $6 million, the DRMS 78.2-percent share of
           the net proceeds of $4 million would be $3,128,000. In addition, DRMS would
           receive 78.2 percent of the $*7, or $*7, for a total of $*7. On the other hand, had
           the $*7 never been paid, DRMS still would have received $*7 as the 78.2-percent
           share of the $6 million in net proceeds.
           However, the purchase of SurplusBid.com, Incorporated for $*7 resulted in
           additional costs of about $*7 to DRMS, which was 78.2 percent of the total
           amount. For example, if sales were $10 million and costs were $7 million,
           including the $*7, the DRMS 78.2-percent share of the $3 million net proceeds
           would be $2,346,000. Without the $*7 in costs, the DRMS share of the $*7 in net
           proceeds would be $*7, or $*7 more. Additionally, because DRMS had already
           shared in the startup costs of CV1 through the costs of the CV1 contract, DRMS
           shared in $*7 of the same startup costs a second time.

           Composition of Recent Contractor Costs. Table 4 shows that for the first full
           fiscal year of the CV2 contract, FY 2002, the reported contractor costs were about
           $*7. The two largest categories were payroll and related expenses and the
           installment payments for the purchase of the CV1 companies or merger and
           acquisition costs. The “other” category consists of expenditures for items such as
           outside labor, travel, and normal operating costs.

                                         Table 4. CV2 Costs for FY 2002
                                          (as reported by the contractor)

                         Type of Cost                                             Amount (millions)
                         Payroll, payroll tax, and employee benefits                       $ *7
                         Merger and acquisition costs                                        *7
                         Sales and marketing                                                 *7
                         Other                                                               *7
                           Total                                                            $*7


7
    This figure represents contractor proprietary data that has been deleted.

                                                        10
           Existing Controls. Existing controls over contractor costs were minimal. The
           contract has no specific guidance on the type of costs or level of allowable costs
           in different categories. The contract does, however, require that costs are actually
           incurred for performance of the contract and supported by an invoice or
           comparable document from the provider.

           According to the contract, someone from DRMS or from another Government
           agency that the sales contracting officer designates is entitled to periodically
           review compliance with the contract as well as applicable laws and regulations.
           The DRMS sales contracting officer and personnel from the Defense Contract
           Audit Agency alternately conduct such reviews. The Defense Contract Audit
           Agency reviews are limited to procedures agreed upon with the sales contracting
           officer, rather than their own usual procedures. We do not believe that the
           reviews have contained adequate examination of costs for reasonableness.
           Additionally, the sales contracting officer stated that he would have little leverage
           to declare a cost either improper or excessive.

           FAR Applicability to Payroll and Related Expenses. Controls over the largest
           category of direct costs, payroll related costs, which comprised about *8 percent
           of the contractor costs for FY 2002, would be much more stringent under the
           FAR. Per Subpart 31.205-6, compensation must be reasonable and must conform
           to the contractor’s established compensation plan. The compensation plan is
           subject to review by the administrative contracting officer. Government
           Liquidation’s parent company told us they had a compensation plan that is
           reviewed by the Board of Directors, but the Government has not performed a
           compensation review. DRMS needs to establish adequate controls over
           contractor costs for the commercial venture program similar to those in the FAR.

Contractor Selection Criteria
           Method for Determining Highest Bid Price. In awarding the CV2 contract,
           DRMS did not consider contractor costs and, ultimately, the total return to
           DRMS. According to the solicitation, award would be made to the responsive,
           responsible bidder that had submitted the highest bid price. The bid price was
           based solely on what the contractor proposed to pay for the initial payment.
           Additionally, the bid price depended on estimates of the amounts and types of
           items that would be made available to the contractor during the contract period.
           Results of Bidding and Award. The winning bidder was determined in
           accordance with the solicitation. DRMS received two responsive, responsible
           bids on the CV2 contract—one from the existing CV1 contractor,
           SurplusBid.com, Incorporated, and one from Surplus Acquisition Venture.
           Surplus Acquisition Venture was awarded the contract because they were
           considered a responsible bidder and had the higher bid price. The difference
           between the two bid prices was only $110,525, which was 3.34 percent of the
           winning bid price of $3,310,900.


8
    This figure represents contactor proprietary data that has been deleted.

                                                        11
           Overall Return to DRMS. To obtain the optimum monetary return for the
           commercial venture program, DRMS had an interest in obtaining a commercial
           venture contractor that was most likely to have lower costs. As discussed in the
           Background, the initial purchase price was a minimal amount that DRMS
           expected to receive from the contractor. DRMS would also receive a significantly
           higher monthly distribution of funds based on cash balances of Government
           Liquidation, which in turn were affected by cash outlays to cover costs.
           Therefore, higher contractor costs would reduce the amount of income DRMS
           would receive.

           DRMS personnel told us that they believed they did not have the option of
           considering anticipated contractor costs in the award of CV2. They stated that the
           Federal Property Management Regulation does not allow the use of contractor
           costs as a criterion for award of sales contracts. The DRMS legal counsel further
           stated that for years DRMS had been trying to get legislative relief for allowing
           such a “best-value” approach in sales contracts but without success. In any future
           commercial venture arrangement for disposal of surplus property, the overall
           return to the Government should be a paramount concern in accordance with DoD
           Manual 4160.21-M. Relevant contractor costs should be considered in the award
           of any contract, and the Government needs to monitor contractor costs and take
           action if excessive. Therefore, DRMS should prepare a legislative proposal that
           enables the use of a best-value approach in the award of sales contracts and
           submit the proposal to Congress.
           Contractor Costs. If DRMS had considered contractor costs in the award
           decision, arriving at a calculated overall return to DRMS, a different decision may
           have been made. The incumbent contractor had already incurred startup costs of
           at least $*9 based on having repaid that amount of advances from its parent
           company, and DRMS is paying SurplusBid.com, Incorporated $*9 of the merger
           and acquisition costs associated with acquiring SurplusBid.com, Incorporated.
           That amount is far greater than the $110,525 separating the bid purchase prices,
           which, as noted, were based on estimates. A new contractor would be expected to
           incur startup costs, while an existing contractor would not.
           DRMS needs to determine how the selection criteria for the follow-on contract
           will consider contractor costs and preclude any future payment of merger and
           acquisition costs.

    Commercial Venture Performance Metrics
           CV2 Metrics. The CV2 contract contains performance metrics to be reported in
           quarterly reports from the contractor, which, if not consistently met, allowed
           either DRMS or the contractor to terminate the contract. The contract requires
           that the performance metrics calculations begin with the fourth quarterly report
           after contract award. Specifically, it allows termination by either party if the
           results of the previous two quarters and the immediately preceding calendar year
           fail to attain required levels.

9
    This figure represents contractor proprietary data that has been deleted.

                                                        12
    The metrics are based on results from only some of the Federal supply classes
    sold, 83 of the 654 Federal supply classes. They require the calculation of a “CV
    [commercial venture] Performance Ratio,” and a “Benchmark Performance
    Ratio.” The “CV Performance Ratio” is the gross proceeds from sales of
    83 designated Federal supply classes divided by the original acquisition value of
    property sold. For the “Benchmark Performance Ratio,” the CV2 contract lists a
    desired gross rate of return on acquisition value for each Federal supply class and
    demilitarization code combination included in the 83 designated items Federal
    Supply Classes. DRMS established a specific gross rate of return for each
    combination, which was lower than the DRMS historical rates. The original
    acquisition cost of items sold in each designated combination is multiplied by the
    designated rate of return in the CV2 contract. To get the Benchmark Performance
    Ratio, the results are then added together and divided by the total acquisition
    value of the designated items sold. The CV2 contract requires that the “CV
    Performance Ratio” be higher than the “Benchmark Performance Ratio.”

    The greatest shortcoming of the CV2 performance metrics, in our opinion, is that
    no part of the CV2 contract metrics calculations includes contractor costs.
    Therefore, in the worst case, the contractor could have costs about equal to the
    proceeds from sales, and DRMS would get little or nothing beyond the initial
    payment. Under the contract for CV2, such an outcome would not be grounds for
    DRMS to terminate the arrangement.

Other Factors Unrelated to Performance
    Factors Possibly Affecting Results. Various factors beyond the CV2
    contractor’s control have probably affected the above results. The first factor is
    related to the setup of the contract and may be temporary.

             Startup Costs. The contractor has emphasized to us that FY 2002 was a
    “ramp-up” year in the 7-year CV2 contract, and the improved performance in the
    first 6 months of FY 2003 may be an indication that the ramp-up is nearing
    completion. Additionally, because the contract is set up so that distributions of
    proceeds are based on cash balances, capital expenses such as purchases of
    equipment are totally reflected in the reported costs of the year paid. In later
    years, as the equipment is still in use and the costs no longer affect distributions,
    distributions to DRMS results should be high.

            Quality of Material. According to figures DRMS provided to us, the
    percentage of the highest quality material, by acquisition value, decreased from
    35.45 percent in FY 1998, before the commercial venture program, to
    28.31 percent for FY 2003, under CV2. The percentage of the lowest quality
    material increased correspondingly from 23.35 percent to 29.67 percent. Such an
    overall decline in the quality of material could affect the program results.

            Events of September 11, 2001. Because the terrorist attacks occurred
    just before the beginning of FY 2002, and very early in the CV2 performance
    period, a negative effect on sales would be expected. Specifically, according to
    the contractor, the terrorist attacks limited “employee and customer access to DoD


                                         13
           facilities and had a negative impact on the marketplace for the disposal of DoD
           surplus.”

                  End-Use Certificates. Delays in issuing end-use certificates allowing the
           purchase of certain items delayed the full start of sales of those items. The
           contractor also reported that costs increased because of the delay. See finding C
           for more detail on the issue.

                   Sales Tax. The contractor’s reported sales do not reflect sales taxes
           collected, but the reported costs do reflect remittances of the taxes to respective
           jurisdictions. Because DRMS did not have to collect sales taxes, the contractor is
           at some disadvantage in comparisons of costs as a percentage of sales. For
           FY 2002, according to contractor monthly reports, sales taxes were about
           2.8 percent of reported sales.

Conclusion
           Inconsistent and questionable data made evaluating the financial results of the
           commercial venture program difficult. Using available data shows that overall
           commercial venture program costs increased from *10 percent of original
           acquisition value in FY 1997 to *10 percent of acquisition value in FY 2003. In
           addition, DRMS net profit for the commercial venture program decreased from
           $90.3 million in FY 1997 (1.71 percent of acquisition value) to $8.3 million
           (0.43 percent of acquisition value) in FY 2002. However, these results improved
           during the first half of FY 2003, and continued improvement could lead to results
           as good as or better than FY 1997 results.

           DRMS needs to adequately monitor performance of the commercial venture
           program and consider the overall return to the Government in the selection of
           future commercial venture contractors. Additionally, DRMS needs to develop
           more effective contractor performance metrics. Finally, DRMS needs to evaluate
           the overall effectiveness of the commercial venture program to determine whether
           it is the best alternative.

Changes to Finding as a Result of Discussions With Contractor
           Following the issuance of the draft report, the CV2 contractor brought a number
           of issues to our attention, and we agreed that the presentation would be fairer if
           we made certain changes to finding A. We also agreed to include a one-page
           summary of the CV2 contractor’s perspective on the commercial venture program
           in Appendix C. An overview of the changes follows.

           In the area of financial results, the contractor pointed out that the numbers that
           DRMS provided for sales revenues and acquisition values of items sold for
           FY 1997 and FY 1998 did not agree with the same figures as presented in the
           CV2 solicitation. As a result, DRMS discovered that the numbers they had
           provided for the draft report were erroneous and provided revised numbers, which
10
     This figure represents contractor proprietary data that has been deleted.

                                                        14
    were still different from the solicitation numbers. Because DRMS was unable to
    reconcile the two sets of numbers, we are presenting gross rates of return based on
    both sets of numbers in this final report.

    Also in the area of financial results, the contractor pointed out inconsistencies in
    the DRMS costs presented in the draft report. DRMS personnel concluded that
    they had no way to allocate their costs to the efforts of handling the CV2 items,
    either before or after the commercial venture program. Therefore, in the final
    report, we used the cost figures DRMS provided that apply to the sale of all items
    except scrap. We disclosed the known overstatements of DRMS costs and have
    adjusted our interpretation accordingly.

    Regarding overall presentation, we have included discussion of the alignment of
    incentives both in this finding and in the background section; minimized
    discussion of the CV1 results; pointed out certain disadvantages the CV2
    contractor had during FY 2002, including the decline in the quality of material;
    and emphasized the improved results for FY 2003. We have removed discussion
    of the financial expectations of the commercial venture program. We have also
    changed our statement about the contractor’s compensation plan to state that the
    contractor reports that it has a plan, although it has still not had any Government
    review.

Management Comments on the Finding and Audit Response
    We received comments on the finding from the Deputy Director, Logistics
    Operations, DLA. A summary of the comments follows.

    Management Comments on the Audit Objectives. DLA disagreed with our use
    of the expression “best value to the Government” in our audit objectives on the
    basis that the term is used in the procurement environment as governed by the
    FAR, while the commercial venture program involves a sales contract governed
    by the Federal Property Management Regulation. DLA stated that the regulation
    places price, not cost, at the top of the selection criteria, thus, award is made on
    the basis of highest price bid.
    Audit Response. We are aware that the arrangement is a sales contract and not
    governed by the FAR, and we did not intend for our use of the term “best value”
    to imply otherwise. However, the commercial venture program is not a traditional
    sales contract because DRMS receives a significant percentage of the net
    proceeds from the sale of DoD surplus property. Therefore, the costs associated
    with selling DoD surplus property should be a factor in awarding future contracts
    involving the commercial venture program.
    Management Comments on Gross Rates of Return. DLA stated that the
    apparent drop in gross rates of return had actually begun before the commercial
    venture program and was attributable to the decline in the quality of property
    becoming available for sale. The drawdown of military services and the closing
    of installations in the early and mid-1990s resulted in an unusually large volume
    of disposed high-quality property, but that effect decreased in the later 1990s.


                                         15
Audit Response. As a result of discussions with the contractor, we changed the
underlying figures for gross rates of return, resulting in improved rates for the
commercial venture program in comparison with previous years. We also added a
section in the finding on other factors unrelated to performance that included a
discussion of the declining quality of disposed property.

Management Comments on CV1 Performance. DLA stated that DRMS had no
previous experience with a commercial venture partnership, and, as such, CV1
was a test of the commercial venture concept that covered only a limited number
of Federal Supply Classes. Because DRMS continued to sell a large number of
Federal Supply Classes, infrastructure reductions could not be realized.

Audit Response. Based on DLA comments, we removed the discussion of the
CV1 performance results.

Management Comments on CV2 Performance. DLA points out that because
of the alignment of interests, the contractor has an interest in reducing costs and
increasing revenues. In the comments, DLA favorably compares sales revenues
and net cash distributions to DRMS for FY 2002 and FY 2003 with sales revenues
and after-expense net proceeds achieved by DRMS in FY 1999.

Audit Response. As a result of discussions with the contractor, we included in
the final report a discussion of alignment of interests, although we believe the
alignment of interests was never meant to be the sole control over contractor
costs. We also revised our figures for DRMS sales revenues and acquisition value
of items sold for FY 1997 and FY 1998 and for DRMS costs for all years.
Because of the declining value of disposed property, we shifted the emphasis
from rate of return on sales revenue to rate of return on original acquisition value.
Our revised figures show for FY 2002 and FY 2003 lower rates of return than for
FY 1997 and FY 1998, even allowing for doubts about the accuracy of the DRMS
costs.

We did not compare FY 1999 results with the CV2 results because the Federal
Supply Codes being sold were not the same. In FY 1999, the CV1 contractor sold
CV1 Federal Supply Codes and DRMS sold CV2 Federal Supply Codes, whereas
the CV2 contractor sells both CV1 and CV2 Federal Supply Codes.
Management Comments on Advantages of Association With the CV2
Contractor. DLA cited advantages that the contractor’s parent company
provides, including an Internet auction business model, active market research,
technical innovation, marketing, public relations programs, and fiduciary
oversight. DLA also stated that the contractor relieves the Government of legal,
operational, and financial risk by assuming all risk of loss and decline in property
value before resale as well as all follow-on expenses.

Audit Response. We agree that DRMS benefits from some or all of the
advantages and hope that the upward trend in the first half of FY 2003 continues.
However, we do not agree that the contractor assumes all risk of loss and decline
in value of property, because such loss of value also affects DRMS share of sales
proceeds.


                                     16
    Management Comments on Controls Over Costs. DLA stated that the sales
    contracting officer correctly allowed the merger costs because the FAR did not
    apply to the CV2 contract. DLA also stated that a higher level of surveillance
    over costs would drive up the DRMS costs and that such an action would not be
    necessary because of the alignment of financial interests. DLA disagrees with our
    conclusion that reviews have not included adequate examination of costs for
    reasonableness, stating that our only basis for saying so was that the commercial
    venture contract is not subject to the FAR. Finally, DLA commented that we did
    not assert any costs have actually been unreasonable.

    Audit Response. We are aware that the Federal Property Management
    Regulation did not prohibit the allowance of the merger and acquisition costs, but
    our draft and final reports also make the point that costs need to be a factor in
    contractor selection to obtain maximum financial return to DRMS. The issue
    would probably not have arisen if the Federal Property Management Regulation
    had allowed consideration of contractor costs in award of the contract because the
    incumbent contractor, who would not have had any merger and acquisition costs,
    would probably have been selected. We agree that the alignment of financial
    interests should help control costs but do not believe that it can be effective as the
    sole cost control. Although the response to the finding objects to a higher level of
    surveillance over contractor costs, DLA responses to the recommendations
    indicate that DRMS will review the compensation levels of contractor employees
    anmd will examine merger and acquisition costs if applicable in future
    commercial venture arrangements. Finally, we used the FAR as a basis for
    comparison because the FAR has contractor cost guidelines, but we believe that
    control over contractor costs in the commercial venture program is desirable
    independent of the FAR because contractor costs directly affect DRMS share of
    sales proceeds.

    Revised Recommendation. As a result of management comments, we revised
    Recommendation A.3. by removing precluding of future payment of merger and
    acquisition costs, recommend the careful examination of any future proposed
    sharing of merger and acquisition costs, and encourage consideration of having
    the Government receive a share of the contractor’s gross proceeds in future
    commercial venture contracts.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, Defense Reutilization and
    Marketing Services, Defense Logistics Agency:

          1. Establish adequate controls over contractor costs for the
    commercial venture program similar to those in the Federal Acquisition
    Regulation.
    Management Comments. The Deputy Director, Logistics Operations, DLA
    partially concurred. DLA stated that DRMS is developing a review team that will
    audit the commercial venture contract, specifically covering Government
    Liquidation’s purchase of supplies and services, reimbursement of employees for

                                         17
expenses, and determination of levels of employee compensation including
bonuses and awards. The results of the new review team will be reported to the
parent company because DRMS does not have authority to change Government
Liquidation’s practices.

Audit Response. Although DLA partially concurred, the comments are
responsive. We agree that the only practical way to establish greater controls is to
increase oversight and that the current contract does not allow DRMS to change
Government Liquidation practices. We commend DRMS for extending the scope
of the new audits into areas beyond what we covered in our report.

      2. Prepare a legislative proposal enabling the use of a best-value
approach in the award of sales contracts and submit the proposal to
Congress.

Management Comments. The Deputy Director, Logistics Operations, DLA
concurred and stated that such a proposal had already been forwarded to DLA for
submission to Congress.

       3. Determine how the selection criteria for the follow-on contract will
consider contractor costs, require careful examination of any future
proposed Government sharing of merger and acquisition costs, and consider
basing distributions to the Government on contractor gross proceeds in
future commercial venture arrangements.

Management Comments. The Deputy Director, Logistics Operations, DLA
partially concurred with our original recommendation. DLA stated that the
current commercial venture contract grew out of a sales solicitation under the
Federal Property Management Regulation, which has price as the primary
contractor selection criterion. However, DLA also stated that DRMS would
carefully consider the question of contractor cost when preparing the next
solicitation and would examine merger and acquisition costs, to determine the
degree to which the Government should share, if merger and acquisition costs
become an issue in a follow-on commercial venture partnership. DLA does not
agree that Government sharing of merger and acquisition costs should be
precluded in all cases. Finally, DLA proposed that follow-on commercial venture
arrangements might avoid the question of contractor costs entirely by specifying
that the Government receive a percentage of the contractor’s gross proceeds,
rather than net proceeds, thereby relieving the Government of any need to monitor
contractor costs and possibly strengthening the contractor’s incentive to keep its
costs low.

Audit Response. Although DLA partially concurred, we consider the comments
responsive to the intent of the recommendation and have revised the
recommendation accordingly. We still believe that the Government sharing of
merger and acquisition costs represented sharing twice in the same costs and
should not have happened, the situation would probably not have arisen if
contractor costs had been a consideration in contract award, and DLA has agreed
to consider them in the future. Other types of situations could arise where the
Government’s best interest would be to share in merger and acquisition costs, and
DLA has agreed to evaluate such situations carefully. We agree that having the

                                     18
Government receive a share of contractor gross proceeds instead of net proceeds
would relieve the Government of the need to monitor contract costs and could
give the contractor a stronger incentive to keep the costs low.

       4. Develop new contractor performance metrics that evaluate factors
such as revenue, costs, return on sales, and total income similar to other
commercial businesses that would effectively judge the success or failure of
the commercial venture program.

Management Comments. The Deputy Director, Logistics Operations, DLA
partially concurred. DLA stated that a link exists between contract performance
metrics and contract award criteria. Because the current contract was awarded
primarily based on price, other award criteria were secondary at best. However,
DLA is addressing the advisability of using a best-value approach in the award of
sales contracts and will carefully consider this recommendation when preparing
the next solicitation.

Audit Response. Although DLA partially concurred, the comments are
responsive because DRMS will consider the recommendation in the next
solicitation. We do not believe that a link between performance metrics and
award criteria necessarily exists and point out that the first commercial venture
contract considered contractor costs in the performance metrics, even though
selection of that contractor was also based primarily on price. However, we also
believe that under the commercial venture setup, price is a poor choice as the
principal selection criterion, and DLA has concurred and is attempting to change
it in response to our Recommendation A.2.

       5. Determine whether the commercial venture is achieving the
desired goals and results or whether the program should be terminated and
other alternatives explored.

Management Comments. The Deputy Director, Logistics Operations, DLA
concurred. The Defense Logistics Agency stated that our audit focuses primarily
on financial results, when the commercial venture contract had achieved the intent
of the political and policy decision to move non-Governmental functions into the
commercial realm, cut the size and labor costs of DRMS, and make DRMS as
financially self-sufficient as possible. DLA also stated that maintaining the status
quo prior to the commercial venture program was not an option and that the
conversion became increasingly difficult to reverse once the transition began.
Therefore, DRMS is committed to the success of the commercial venture program
and continues to work with and oversee the current commercial venture
contractor. DLA noted that the current contractor’s costs are declining and that its
rates of return are increasing. Finally, DLA stated that DRMS will consider all
options carefully in any follow-on arrangements.




                                    19
           B. Disposal of Property Items With
              Demand Requirements
           DLA was purchasing new property items to fill requisitions while the
           same property items, in new or unused condition, were being disposed and
           sold to Government Liquidation. The condition occurred because:
                                                C




                      •   DRMS was not required to screen excess property items
                          against DoD demand requirements and identify any open
                          requirements such as backorders, contract orders, or purchase
                          requests,

                      •   DLA did not have a standard material recoupment program at
                          all of the Defense supply centers, and
                                                          C




                      •   Government Liquidation was not able to screen property items
                          for demand and resale to DoD.

           As a result, Government Liquidation received $96 million of property
           items between July 2001 and July 2002 in new or unused condition that
           still had DoD demand requirements. DoD could have reduced costs by
                                                    C




           about $9.2 million if property items were used to fill open requirements
           and could increase revenues up to $18.7 million if property items with
           current demand requirements (less than 3 years of inventory) were sold
           back to DoD before being placed on auction.        C




Disposal of New or Unused Property Items
    Disposal is defined as the process of reutilizing, transferring, donating, selling,
    destroying, or other ultimate disposition of personal property items. The process
                                                                         C




    begins when a DoD activity declares material in excess of its needs and transfers
    the material to one of the Defense Reutilization and Marketing Offices (DRMOs).       C




    DoD Manual 4160.21-M states that DoD must reutilize excess and surplus
    personal property items to the maximum extent possible, filling existing needs,
    before initiating any new procurement or repair. All DoD activities must screen
    excess assets and review excess asset referrals for those assets that could satisfy
    valid needs. Property items are required to be screened for reutilization, donation,
    transfer, or exchange before being identified for sale.

    Disposed Property Items With Demand Requirements. Between July 2001
    and July 2002, DRMS sold 407,960 NSNs to Government Liquidation. Of that
                  C                                                          C




    amount, 31 percent (127,961) of the NSNs were in either new or unused condition
    and were, by definition, serviceable and issuable without limitation or restriction.
    DoD Regulation 4140.1-R, “Defense Material Management Regulation,”
    May 1998, states that material available in the material disposition system shall be
    used to the extent practicable to prevent concurrent procurement and disposal.
    However, 28 percent (35,831) of the new or unused NSNs, valued at $96 million,
    had annual demand requirements as of November 2002. Table 5 shows by unit
                                                                  C




    cost the number of NSNs with annual demand requirements.

                                           20
             Table 5. NSNs With Annual Demand Requirements
                            (November 2002)

                             Number                 Number of
     NSN Unit Cost
     U              U        of NSNs
                             U                U    Property Items
                                                   U                   U   Acquisition Value
                                                                           U




     Less than $20                   21,397                8,259,348           $17,291,715
     $20.01 to $35                    2,801                  182,353             6,118,020
     $35.01 to $50                    1,776                   67,431             3,539,311
     $50.01 to $100                   2,890                   91,386             7,594,431
     $100.01 to $800                  5,370                  134,851            30,010,565
     Greater than $800           U    1,597
                                          U            U      12,924
                                                                   U            31,464,615
                                                                                U




     U




         Total                   35,831                8,748,293               $96,018,657


Backorders, Open Contracts, and Purchase Requests. Some of the
35,831 disposed NSNs with demand requirements also had backorders, open
contract orders, or open purchase requests that could have been partially filled
with disposed quantities, thus reducing DoD costs by about $9.2 million. We
                         C




compared the 35,831 disposed NSNs to those NSNs that had backorders, open
contract orders, and open purchase requests. The majority of the NSNs with
backorders also had purchase requests or contract due-in quantities so we
subtracted the backorders from the open contract or purchase requests. Of the
35,831 disposed NSNs, 5,417 NSNs had quantities on contract or purchase
request remaining after filling the backorders. We compared the 5,417 NSNs to
the disposed NSNs and identified 298,923 property items with an approximate
acquisition cost of $8.9 million that could have been used rather than disposed.
We also identified 360 NSNs that had backorders that would not be filled through
a purchase request or contract due-in quantity either because no purchase requests
or contracts for the NSN existed or because the amount on backorder was greater
than the quantity on purchase request or contract. After comparing to disposed
quantities, we identified 10,943 property items with an approximate acquisition
cost of $0.3 million that could have been used to fill or partially fill the
backorders.

Property Items Sold by Government Liquidation. In a judgmental sample of
44 disposed NSNs taken from the disposed NSNs with demand requirements,
24 NSNs (55 percent) were procured again within 6 months of the disposal date.
Of those property items, 6 NSNs (25 percent) had a procurement action on the
same date for which the property item was disposed. The disposed NSNs in the
sample were coded as in new or unused condition. We attempted to track the
reasons for disposal of the sample NSNs. The Defense supply centers did not,
however, have records of disposal for most of the NSNs in our sample. The
supply analysts speculated that most of the NSNs were probably directly disposed
to the DRMO rather than following the procedure to request a credit for returning
the NSN to the Defense supply center. The following are examples of disposed
property items Government Liquidation sold.



                                                  21
            •   An Army Depot disposed of 270 property items of
                NSN 5320-01-033-8179, a blind rivet, with a total acquisition
                cost of $10,619. Government Liquidation sold the 270 property
                items in a batch lot consisting of more than 2,000 property items for
                $1,320; 12 percent of the original acquisition cost. On the same date
                that the property items were disposed, a Defense supply center
                procured 221 property items of this NSN for a total price of $5,180.

            •   An Air Force Supply Office disposed of 140 property items of
                NSN 5310-01-305-2544, a self-locking barrel nut, with a total
                acquisition cost of $22,147. Government Liquidation sold the
                property items in a batch lot consisting of 337 property items for $116;
                0.5 percent of the original acquisition cost. Within 1 month of the
                disposal, a Defense supply center procured five property items of this
                NSN for a total price of $1,600.

            •   A Naval Supply Center disposed of 13 property items of
                NSN 6110-01-105-5172, a motor starter, with a total acquisition cost
                of $29,019. Government Liquidation sold the property items for
                $1,648; 6 percent of the original acquisition cost. Within 6 months of
                the disposal, a Defense supply center procured 17 property items of
                this NSN for a total price of $27,924.

     DLA Guidance. DLA Regulation 7000.4, “Reporting and Return of Excess
     Material to the DLA Distribution System,” October 1978, establishes policy and
     guidance for what to do with excess material and the allowance of credit for
     returned material. The regulation states that a total line item value of less
                      C




     than $20 is the dollar threshold for returns and also disallows return of NSNs that
     are coded as nonstocked, precluding returns of material when the administrative,
     transportation, and handling costs to the Government would exceed the value of
     the material. DLA Regulation 7000.4 establishes a formula for the creditable
     level of return and a $35 limitation for returns of non-creditable returns.
     Normally only new and unused material is accepted for return.

     Material Returns Program. The 2002 DLA Customer Assistance Handbook
     provides policy for a material returns program. The program allows the return to
     stock of any property item that has become unneeded at the retail level. Reasons
     for return include programs that did not materialize, end item reductions for
     specific weapon systems, and requisition errors. DLA reviews the offer and
     determines if an unneeded retail asset can be used to fill a requirement. If the
     material could fill a shortfall in the approved acquisition objective (approximately
     2 years of material), a credit is issued for return; if the material would fill a
     demand requirement for years 3, 4, or 5, the material is offered for return without
     credit; and if the material exceeds the 5-year demand requirement, the return is
     declined.

Screening Inventory for Reutilization
     DRMS Instruction 4160.14, volume III, chapter 1, “Instructions for Reutilization,
     Transfer, and Donation for DRMS and the DRMOs,” January 2000, requires that

                                          22
    DRMOs reutilize, transfer, or donate excess and surplus property items for
    requirements. The goal of reutilization, transfer, or donation is to redistribute
    goods bought with taxpayer dollars to defray the cost of Federal, state, and local
    Governments. C




    Screening. DoD Manual 4160.21-M states that to satisfy needs, DoD activities
    must screen assets for requirements. At the DRMOs, the formal screening
                                        C




    process requires 42 days. The first 21 days are reserved for reutilization and
    transfer customers and the second 21 days are open to all reutilization, transfer,
    and donation customers. During the screening, customers may tag the property
    items they want and submit requisitions for those property items. At the end of
    the 42-day formal screening period, DRMS allows an additional 10 days for
    customers to requisition and remove property items.    C




    Reutilization. Reutilization takes place during the screening process and is
    accomplished visually, manually, or electronically. Customers may visit the
    DRMOs for viewing excess property items and tag property items they want.
    Once tagged, the customer may submit a requisition and remove the property
    items. Customers may also visit the DRMS Web site to search the property item
         C




    inventory database for current inventory, view photos, identify condition and
    location, electronically tag property items, and electronically submit a requisition
    for the tagged property items. In addition, customers are encouraged to provide
                                 C




    lists of property item requirements to the DRMOs. DRMO personnel use the lists
                                                       C




    to screen excess property items and offer those property items to the activity that
    lists it as a requirement. However, they are not required to screen the property
                           C




    items for DoD demand requirements. DRMS should require personnel to screen
    new or unused property items against DoD demand data and identify any property
    items that may have backorders, open contract orders, or open purchase requests.
    DRMS should then offer those property items to the requesting activity.

Standard Material Recoupment Program
    Although no standard program is used by the Defense supply centers, the centers
    have initiatives to screen and match DRMS material for filling requirements. One
    program is the Automated Asset Recoupment Program, run by the General and
    Industrial Directorate at the Defense Supply Center Philadelphia. C




    Automated Asset Recoupment Program. The Automated Asset Recoupment
    Program is used to screen and recoup excess NSNs to fill the Defense Supply
    Center Philadelphia General and Industrial requirements. The original prototype
    was developed in June 1996, and the program was implemented in
    September 2000. The Automated Asset Recoupment Program screens excess
    NSNs on a daily basis for imminent breach of reorder point, property items on
    backorder, open purchase requests, and NSNs at recycling control point sites.

    The program has a list of NSNs that are excluded from return to inventory.
    According to the analysts, the list of excluded NSNs follows the criteria of the
    customer returns program. However, the list also includes a list of NSNs item
    managers identified as not returnable for various reasons, to include safety and
    quality issues. In addition, the list includes property items that have been

                                            23
     identified as customer return improvement initiative items. Customer return
     improvement initiative items are selected based on poor product quality
     deficiency report history, critical status, or special handling requirements. The
     process is designed to filter customer returns at the depot level before they are
     placed back in the system to prevent poor quality or suspect material from
     infiltrating the inventory. The Automated Asset Recoupment Program also has a
     minimum dollar value threshold of an extended dollar value of $25, which,
     according to the analyst, is based on a cost-benefit relationship. The extended
     dollar value is the NSN unit cost multiplied by the quantity at a DRMO.

     NSN Batching. Another reason NSNs may not be recouped is because DRMO
     personnel can “batch,” or group together, NSNs that have an extended dollar
     value of less than $800 with similar items. The objective of batching is to reduce
     time and costs related to physical handling and administrative processes that
     receiving property items individually require. When batched, however, items lose
     their visibility and cannot be individually screened and recouped from the
     DRMOs. Property specialists from DRMS stated they had planned to conduct an
     effectiveness test of the batching process during the summer of 2003. The
     specialists hoped to determine whether savings could be achieved and backorders
     reduced if DRMO personnel no longer batched NSNs with demand requirements.

     Recoupment Savings. During the time period from October 2002 to
     February 2003, the Philadelphia Defense Supply Center reported that the
     Automated Asset Recoupment Program was used to recoup property items valued
     at $405,289. Included in that figure is $150,212 of property items that were on
     backorder. Those NSNs were provided to the DoD component at no cost. The
     analysts stated that they are in the process of exporting the program to two other
     supply centers, but the program needs to be adjusted for each center’s individual
     product lines. DLA needs to implement a standard material recoupment program,
     such as the Automated Asset Recoupment Program, at all the Defense supply
     centers.

Contractor Screening for Reutilization
     Government Liquidation was not able to screen property items for demand and
     resale to DoD. One of the reasons the supply analysts provided for disposal of the
     property items with demand requirements was timing differences as a result of the
     dynamic demand cycle. Because of the dynamic demand cycle and the possibility
     of changing requirements, it would make sense for Government Liquidation to
     screen its inventory for property items that were disposed with less than 3 years
     remaining inventory for resale to DoD before placing the property items on
     auction.

     Current Demand Requirements. The demand cycle of an NSN is dynamic, and
     requirements can easily change from one quarter to the next. To determine the
     amount of time before the inventory of an NSN is depleted, we developed a
     “years until buy” formula. The years until buy formula is the sum of the
     inventory on hand plus contract due-in quantity less the quantity on backorder
     divided by the annual demand quantity of an NSN. For example, if the annual
     demand quantity for an NSN is 10 property items per year and 100 property items

                                         24
are in stock, the years until buy for the NSN is 10 years. However, if the annual
demand quantity were to increase from 10 property items to 50 property items per
year, and 100 property items are still in stock, the years until buy decreases to
2 years. We calculated the years until buy for the 35,831 NSNs, valued at
$96 million, based on annual demand quantities and inventory levels. Figure 5
shows the acquisition value of NSNs with 3 years or less of inventory, or current
demand requirements, is $46.8 million.


                       >10 Years                    0 to 1 Year
                         $24.0                         $24.3




                >5 to 10 Years
                    $15.1
                                                     >1 to 3 Years
                                                         $22.5

                                   >3 to 5 Years
                                       $10.1


Figure 5. Years Until Buy For Disposed NSNs With Demand (in millions)
Economic Retention Level Policy. Supply analysts stated that NSNs may be
disposed, even though demand for the property items still exists, because more
inventory is on hand than needed for future requirements. DLA policy is to base
disposals on inventory levels at a specific point in time using an economic
retention level formula, but because the demand cycle is dynamic, inventory
requirements can change from one quarter to the next. For example,
NSN 6105-01-241-2451, a shaft and wheel motor, had 143 property items in
inventory and the quarterly forecasted demand was 3 items. In April 2001,
71 property items were disposed, leaving 72 in inventory. The Supply Branch
Chief at the activity concluded that the property items were disposed because the
NSN was on an excess disposal project and had erratic demand. However, less
than a year later, in February 2002, only 14 property items remained in stock and
a purchase request for 41 property items of the NSN existed. If Government
Liquidation could have screened the property items for demand, they may have
held a portion of the 71 disposed property items and offered them for resale to
DoD, thereby filling the purchase request for 41 property items.

Reasons for Property Item Disposal. According to the supply analysts and
property specialists interviewed, no quick answers exist as to why NSNs are
disposed while a need for those NSNs still exists. Reasons that some of the
disposed NSNs would not be available or could not be reused included incorrect
codes, unidentified sources of supply, deficiency reports, quality or safety issues,
or shelf life concerns. A supply analyst also stated that if NSNs were coded as
nonstocked NSNs or coded for direct vendor delivery, the supply center would
not accept the return of the NSN because no storage location for the NSN existed.
The analyst indicated the Services dispose of NSNs for other reasons that include

                                        25
    minimum value for credit returns, response delays, credit returns denied as a
    result of the prohibitive costs of testing suspect material, and material not
    accepted by the supply centers for monetary credit.

    We recognize valid reasons may exist that some of the disposed NSNs would not
    be available or could not be reused. However, if 50 percent of the NSNs could be
    sold back to DoD for filling current requirements (less than 3 years inventory), the
    return could be up to $18.7 million (50 percent of $46.8 million, multiplied by the
    80 percent that DRMS receives under the CV2 contract). DRMS should have
    procedures in place for attempting reutilization of inventory with quantities on
    backorder, purchase request, or open contract. Although various chances to
    screen DRMO property items for filling customer requirements exist, many
    property items do not get looked at and fall through the screening programs. If it
    could screen items for demand, Government Liquidation would give DoD a final
    chance to recoup property items before they are sold to the public. DRMS should
    also negotiate with Surplus Acquisition Venture and modify the contract so that it
    will allow Government Liquidation to screen property items for demand and
    resale to DoD to help counter the effect of timing differences and erratic
    requirements. Although that arrangement will still cost DoD a percentage of the
    acquisition cost, based on the CV2 contract terms, 80 percent of the sale proceeds
    would be returned to DoD. That 80 percent is significantly higher than 80 percent
    of the amount received through surplus sales.

Conclusion
    Of the NSNs in new or unused condition disposed and sold from July 2001 to
    July 2002 to Government Liquidation, 28 percent had demand requirements. Our
    analysis shows that DoD could have saved money by filling backorders, purchase
    requests, and open contracts rather than disposing of property items and
    reacquiring those items at a higher acquisition cost. We realize that the demand
    cycle is dynamic and requirements for property items could potentially change,
    and that not all disposed property items have potential for reutilization; however,
    if disposed items were used to fill backorders, purchase requests, and open
    contracts, up to $9.2 million would have been saved. Additionally, if 50 percent
    of the disposed property items with less than 3 years until buy were sold back to
    DoD by the contractor, DRMS revenues could increase by up to $18.7 million.
    DoD could have reutilized some property items to fill requisitions and satisfy
    requirements instead of selling the property items in the private sector for a small
    percentage of the acquisition cost. We recognize that recouping DRMO assets is
    a competitive process with a minimal time frame of asset availability. Funds can
    be saved, however, if the Defense supply centers continue to search the DRMS
    assets for available property items that could satisfy needs; DRMS screens new
    and unused property items for backorders, open contract orders, open purchase
    requests; and Government Liquidation screens the property items they purchase
    for demand requirements and resale to DoD.




                                         26
Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend the Director, Defense Logistics Agency issue guidance
    that implements a standard material recoupment program, such as the
    Automated Asset Recoupment Program, at the Defense supply centers.

    Management Comments. The Deputy Director, Logistics Operations, DLA
    concurred stating that a standard automated recoupment program is being
    designed for the DLA Business Systems Modernization effort. The recoupment
    function is expected to be available in calendar year 2005.

    B.2. We recommend the Commander, Defense Reutilization and Marketing
    Service, Defense Logistics Agency:

          a. Issue guidance for screening new or unused property items with
    demand requirements against backorders, open contract orders, and open
    purchase requests and notify customers property when items are available.

    Management Comments. The Deputy Director, Logistics Operations, DLA
    partially concurred. DLA stated that guidance for screening items for re-issue
    within DoD is already well established and the requisitioner is responsible for
    screening for available assets and recouping them, where appropriate. DLA
    suggested that the audit recommend process improvements that would make
    available DRMS assets more visible for screening. For example, DRMS is testing
    the matching of DLA Inventory Control Point Want Lists for new or unused items
    $800 and less against Generator Pre-Receipt/Due-In notices to support the
    Inventory Control Point backlog reduction. The target date for the completion of
    the test results is February 2004.

    Audit Response. We consider the comments partially responsive. We
    acknowledged the DLA batching initiative in the Screening of Inventory for
    Reutilization section of the report and agree that the initiative should assist with
    making available DRMS assets more visible for screening. However, 33 percent
    of the $96 million of new or unused property items with demand requirements
    received by Government Liquidation had a unit price of $800 or greater.
    Therefore, we request that the Deputy Director, Logistics Operations, DLA
    provide additional comments in response to the final report.

          b. Instruct that the sales contracting officer negotiate with the
    contractor modification of contract 99-0001-0002 to include screening new or
    unused property items for demand and resale to DoD.

    Management Comments. The Deputy Director, Logistics Operations, DLA did
    not concur. DLA stated that the Government Liquidation contract already has
    provisions for DRMS to withdraw items from Government Liquidation sales if a
    valid Government requirement is documented. For DRMS to dictate a contract
    modification for the purpose the IG proposes would distort the incentives that the
    commercial venture contract is built on, compelling Government Liquidation to
    sell noncompetitively to DoD entities items that they have up until now sold

                                         27
competitively on the open market. The commercial venture was designed as a
risk and reward sharing, public-private partnership that would free the
commercial venture purchaser from the policy constraints that DRMS sales
operations were forced to operate under and would encourage best business
practices. Moreover, DoD supply activities can search the Government
Liquidation Web site for items on sale that could be used to fill backorders or
offset new procurement, and bid for these items along with other participants.

Audit Response. DLA comments are nonresponsive. Historically, Government
Liquidation has received only about 2 percent return on acquisition value for the
property items sold through Internet auctions. The intent of our recommendation
was for Government Liquidation to sell property items in demand by DoD at the
full acquisition value or at a percentage of the acquisition value higher than the
value that would be received through an Internet sale to a public bidder, therefore
increasing the return for both Government Liquidation and DRMS. Therefore, we
ask that the Deputy Director, Logistics Operations, DLA reconsider her position
and provide additional comments to the final report.




                                    28
           C. Processing of End-Use Certificates
           The Defense Logistics Agency Criminal Investigations Activity (DCIA)
           did not process 130 end-use certificates from Government Liquidation
           customers that were more than 90 days old, and Government Liquidation
           stated that sales of applicable items were impaired and that they incurred
           additional costs for storing and handling the unsold items. End-use
           certificates are statements of a purchaser’s intended use of certain
           controlled items. The backlog exists because before award of the CV2
           contract, DCIA concluded that previous processing was not stringent
           enough and cancelled the existing clearances, which resulted in a
           substantial workload. As a result, DRMS revenue decreased by an
           unknown amount, including approximately $1.07 million for which the
           contractor reduced distributions to DRMS because of the perceived extra
           costs.

Small Business Association Complaint
    We originally looked at this issue because of a complaint from a small business
    association about the certificate requirement. The small business association later
    told us that they were satisfied on the original complaint but were concerned
    about delays in the processing of the certificates. We substantiated the complaint
    about the delays as detailed in this finding. See Appendix B, Issue 4, for details
    about the complaints.

End-Use Certificate Requirement
    DLA Requirement. DLA is required to collect and verify end-use certificates
    from purchasers of certain excess personal property. DoD Directive 2030.8,
    “Trade Security Controls on DoD Excess and Surplus Personal Property,”
    November 17, 1997, states that DoD must ensure that DoD surplus property
    designated as munitions list items (MLI) or commercial control list items (CCLI)
    are transferred in accordance with U.S. laws, regulations, and policies. The
    policy requires end-use certificates from purchasers of such property. The
    directive defines the end-use certificate as, “A statement by a prospective
    purchaser or other transferee indicating the intended destination and disposition of
    MLI and CCLI property to be purchased/transferred, and acknowledging U.S.
    export license requirements.”

    The directive designates the Director, DLA as the program monitor for policy
    implementation of trade security control policy and procedures for transfers of
    DoD excess and surplus personal property by the DoD. DLA has implemented
    the DoD Directive in DLA Instruction 2030.1, “Trade Security Control
    Procedures Applicable to Department of Defense Surplus Property and Foreign
    Excess Personal Property,” October 17, 2001.

    CV2 Requirement. One difference between CV1 and CV2 is that Government
    Liquidation handles MLI and CCLI property. The CV2 contract requires,
    therefore, that the contractor ensure buyers of MLI and CCLI property have
                                        29
    proper clearances. Specifically, the CV2 contract requires that the contractor
    obtain an “End-Use Form 1822” from prospective buyers of MLI and CCLI
    property, submit the form to DRMS, and confirm with DRMS that the buyer is
    cleared for the purchase before releasing the property.

DLA Processing of End-Use Certificates
    According to DoD Directive 2030.8, the DLA implementation duties include
    “Verifying the stated [in the certificate] end use, end user, and destination of the
    MLI or CCLI.” DCIA actually performs the verification. DCIA personnel told us
    that the Battle Creek, Michigan Trade Security Controls Clearance Office of the
    DCIA now performs all of the processing. Previously, that office performed the
    initial processing of the certificates and sent the certificates to the Memphis,
    Tennessee Trade Security Controls Clearance Office for the main processing. At
    the end of the process, DCIA determines whether the customer is cleared and
    whether the sale can proceed. Although prospective Government Liquidation
    customers must file a new certificate for each sale of applicable items, a
    customer’s clearance is good for 5 years once granted, and certificates filed
    during those years do not require extensive processing.

    Processing Time of End-Use Certificates. DCIA officials recognize that the
    processing time of certificates has been excessive. According to DRMS
    personnel, DLA had 387 certificates as of March 27, 2003, from Government
    Liquidation customers awaiting processing. Of those 387 certificates, 130 were
    pending for more than 90 days.

    Causes and Proposed Corrections. Shortly before award of the CV2 contract,
    DCIA cancelled all the previous trade security clearances. DLA officials told us
    that the cancellation occurred because they had determined that the existing
    clearance process was not sufficiently stringent. The DLA officials also stated
    that the cancellation was unrelated to the upcoming CV2 award. Subsequently,
    the events of September 11, 2001, caused a new emphasis on strict compliance
    with security measures. Additionally, DCIA personnel stated that slow responses
    to necessary inquiries, beyond DCIA control, caused some of the delays.

    DCIA has considered the matter enough of a priority to reassign a person full time
    to finding solutions. As a major part of the effort for improving certificate-
    processing time, DCIA personnel stated that they closed the Memphis operation
    and consolidated processing in Battle Creek as of April 5, 2003. We consider that
    a good step. DCIA has already accomplished some additional improvements,
    such as working with the contractor to prioritize certificates related to larger sales,
    and DRMS records show that the number of pending certificates more than
    90 days old has decreased from 289 certificates as of January 13, 2003, to
    130 certificates as of March 27, 2003.

Effect on DRMS Revenue
    Sale of Items Requiring Certificates. Although the CV2 contract was awarded
    June 13, 2001, the contractor did not sell until October 2001 any items requiring

                                          30
           certificates. Sales for October 2001 were only $*11. Sales of items requiring
           certificates have increased greatly to about $*11 for the first 6 months of FY 2003.
           However, as of March 2003, the contractor continued to perceive an impairment
           of ability to sell the applicable items. The contractor has expressed ongoing
           dissatisfaction with the certificate process through actions as explained in the
           following sections.

           Withholding Initial Payments.

             *12

           Contractor Claim for Lower Sales Returns on Items Sold.

           *12

            Contractor Costs Arising from Certificate Processing Delays.

           *12

Conclusion
           DCIA has taken positive steps to improve the time required to process end-use
           certificates. The consolidation of processing to one location should lead to further
           improvement. Nevertheless, the contractor perceives a continual impairment of
           sales as a result of certificates that are not processed in a timely manner.
           Although the contractor stopped withholding initial payments for unsold items
           and dropped the claim for lower proceeds on sold items, any adverse effect on the
           timing or amount of contractor sale proceeds that were the basis for the actions
           also represent an unknown adverse financial effect on DRMS. The contractor
           also believes that the unsold items have increased contractor costs, and as a result,
           continues to charge costs as seller indirect costs, reducing DRMS proceeds
           by $*11 from November 2001 through March 2003. Keeping security concerns in
           mind as appropriate, DLA should resolve the issue of backlogged end-use
           certificates.

Recommendation and Management Comments
           C. We recommend that the Director, Defense Logistics Agency Criminal
           Investigations Activity, accelerate elimination of the backlog for unprocessed
           end-use certificates as well as prevent any future backlogs.

           Management Comments. The Deputy Director, Logistics Operations, DLA
           concurred. DLA reported that as of September 26, 2003, the DCIA had only
           68 end-use certificates pending, of which 5 were more than 90 days old.


11
     This figure represents contractor proprietary data that has been deleted.
12
     This area of the report represents contractor proprietary data that has been deleted.

                                                        31
                     D. Controls Over Noncompetitive and
                     Reduced-Competition Sales
                     Although the contractor reduced the amount of noncompetitive and
                     reduced-competition sales to about $0.2 million for the first half of
                     FY 2003, sales below market value may occur. Sales below market value
                     may occur because the contract and the Federal Property Management
                     Regulation do not provide applicable coverage and because DoD reviews
                     of noncompetitive and reduced-competition sales were minimal. As a
                     result, DRMS may receive less revenue if noncompetitive and
                     reduced-competition sales result in sales below the market value.

Noncompetitive and Reduced-Competition Sales
           Government Liquidation categorizes its sales as Internet sales, sealed bid sales,
           and “private treaty sales.” No clear definition of private treaty sales was in
           contractor literature, and contractor personnel were unable to explain the term.
           The private treaty sales include both sales to one bidder with no attempted
           competition and sales with limited competition. For the purposes of this report,
           we will refer to private treaty sales as noncompetitive and reduced-competition
           sales.

           *13

Small Business Association Complaint
           We originally looked at this issue because of a complaint from a small business
           association. We substantiated the allegation that in CV1 and CV2 noncompetitive
           and reduced-competition sales, no assurance existed that property would be sold
           using full-and-open competition. However, noncompetitive and
           reduced-competition sales have dropped substantially under CV2. See
           Appendix B, Issue 1, for details about the complaint.

Contract Requirements on Noncompetitive and
  Reduced-Competition Sales
           The contract does not mention noncompetitive and reduced-competition sales and
           does not contain either a requirement or a preference for competitive bidding in
           the resale process. The section on contractually allowed compliance reviews
           contains nothing specific on how to review sales of the commercial venture
           contractor.



13
     This area of the report represents contractor proprietary data that has been deleted.

                                                        32
Federal Property Management Regulation. The applicable portion of the
Federal Property Management Regulation, 41 Code of Federal Regulations
(C.F.R.) 101-45, “Sale, Abandonment, or Destruction of Personal Property,”
July 1, 1999, does not cover the contractor’s noncompetitive and reduced-
competition sales. Instead, the C.F.R. covers sales of property the Government
owns, not sales when the contractor owns the property. However, because the
Government has an interest in the commercial venture contractor’s sales proceeds,
we believe some similar controls would be appropriate.

The C.F.R. favors competitive bidding for Government sales of property.
Section 304-2 generally permits noncompetitive negotiated sales to private
concerns when public exigency exists, when the estimated fair market value does
not exceed $15,000, or when an earlier attempt to advertise for bids was not
successful. Unless the law specifically authorizes the sale and before any
negotiated sale, the head of the selling agency, designee, or the Administrator of
General Services must approve a written justification.

In the interest of having similar controls, we believe that some written
justification, with documented approval by someone other than the person
deciding to conduct a noncompetitive or reduced-competition sale, would help
avoid the use of such sales when full-price competition would be worthwhile. We
further believe that the method used for arriving at a fair and reasonable price
should be documented.
DoD Oversight Of Noncompetitive and Reduced-Competition Sales. DRMS
could improve controls over noncompetitive and reduced-competition sales in
several respects. DRMS oversight of the sales was minimal, and the Defense
Contract Audit Agency, under procedures agreed upon with DRMS, does not
address such sales.

        DRMS Reviews. DRMS oversight over noncompetitive and
reduced-competition sales was minimal. DRMS reviews have covered those
types of sales, but the reviews never tested the justification for having a
noncompetitive or reduced-competition sale or the way fair and reasonable prices
were determined. One review identified a potential internal control weakness in
the area of noncompetitive or reduced-competition sales that the CV1 contractor
conducted. In the review for the period January 1 through June 30, 2000, DRMS
found that because of required manual intervention and a lack of internal controls
applicable to other types of sales, Levy/Latham Global could misplace bids and
award reduced-competition sales to someone other than the highest bidder. The
report said that the problem needed to be addressed, but there were no subsequent
DRMS reviews under CV1 to indicate whether DRMS addressed it.

        Defense Contract Audit Agency Reviews. As discussed in finding A,
the Defense Contract Audit Agency periodically reviews compliance with the
contract as well as applicable laws and regulations. The Defense Contract Audit
Agency reviews are limited to procedures agreed upon with the sales contracting
officer. The procedures cover other types of sales, but not noncompetitive or
reduced-competition sales. DRMS should include the noncompetitive and
reduced-competition sales as a category in the Defense Contract Audit Agency
reviews of the commercial venture program.

                                    33
    Contractor Internal Procedures. Government Liquidation has detailed
    procedures on recording noncompetitive or reduced-competition sales, but the
    procedures contain little guidance on the circumstances that justify a
    noncompetitive or reduced-competition sale, the method of arriving at a fair and
    reasonable price in the absence of competition, or any higher-level approval
    required. The guidance states that site managers should work with customers to
    arrive at a price and should process only noncompetitive or reduced-competition
    sales that meet certain rate-of-return requirements. Regional managers approve
    only noncompetitive or reduced-competition sales that do not meet rate-of-return
    requirements or that exceed $2,000 in the sales price for one or more single
    Disposal Turn-In Documents.

    Sample Results. We selected a judgmental sample of 28 noncompetitive or
    reduced-competition sales executed in October 2001. Government Liquidation
    headquarters collected responses from the various sites and submitted them to us.
    The responses for approximately half of the items, 15 of the 28, indicated no price
    competition at all, while the remaining 13 indicated some competition.

    Although we did not find evidence of any clearly improper sales, we did find
    two sales that did not comply with Government Liquidation’s official procedures.
    The two sales both contained Disposal Turn-In Documents that sold for more
    than $2,000, but the Government Liquidation response to us did not indicate
    regional manager approval, as required. We also did not find documentation of
    higher-level approval, the reasons for conducting a noncompetitive or
    reduced-competition sale, or the method of arriving at a fair and reasonable price.

Conclusion
    Although we acknowledge that in some cases the cost of conducting full-
    competition sales might outweigh the benefits, DRMS could be losing revenue in
    the noncompetitive or reduced-competition sales if items are sold for less than
    could have been obtained with full competition. The absence of a requirement for
    documented approval of such sales makes inappropriate use of the type of sales
    by one person possible. The absence of documentation of the reasons for not
    using full competition and of the methods for arriving at a fair and reasonable
    price make answering any follow-on questions about whether the sale was
    appropriate difficult.
    Government Liquidation shows a preference for fully competitive sales. As
    noted, reported noncompetitive and reduced-competition sales were about
    $1.4 million during FY 2002 but only about $0.2 million for the entire first half of
    FY 2003. We commend Government Liquidation for the reduction in the use of
    noncompetitive and reduced-competition sales but believe additional control over
    the remaining sales is necessary. The controls should include coverage of
    noncompetitive and reduced-competition sales in Defense Contract Audit Agency
    reviews.




                                         34
Recommendation, Management Comments, and Audit
  Response
    D. We recommend that the Commander, Defense Reutilization and
    Marketing Services, Defense Logistics Agency:

          1. Monitor the dollar level of reported noncompetitive and
    reduced-competition sales for any significant increase.

           2. Include the noncompetitive and reduced-competition sales as a
    category in Defense Reutilization and Marketing Services and Defense
    Contract Audit Agency reviews of the commercial venture program.

    Management Comments. The Deputy Director, Logistics Operations, DLA
    concurred with Recommendations D.1. and D.2. and stated that the DRMS review
    team would audit the sales.

           3. In solicitations for any future commercial venture contracts,
    express a preference for fully competitive sales and specify some minimum
    documentation and approval requirements for any contractor sales where
    competition is restricted.

    Management Comments. The Deputy Director, Logistics Operations, DLA did
    not concur. DLA stated that even when DRMS conducted its own sales, the sales
    were not fully competitive when necessary and that part of the reason for moving
    the sales into the private sector was to take advantage of the contractor’s ability to
    apply best business practices. DRMS does not believe that the contractor should
    be prohibited from conducting those types of sales “unless it can be demonstrated
    that he is consciously acting against the best interest of the Government.”

    Audit Response. DLA comments are not responsive. Our recommendation was
    not intended to prohibit noncompetitive and reduced-competition sales in future
    commercial venture contracts but to make the preference for fully competitive
    sales clear to the contractor. We believe that documentation and approval
    requirements need to exist so that the Government will be able to evaluate the
    appropriateness of the sales and determine whether the contractor is acting in the
    best interest of the Government. We request that DLA reconsider its position on
    the recommendation and provide additional comments in response to the final
    report.




                                         35
           E. Payments on Financial Advisor
              Contract
           Government Liquidation may continue to pay the financial advisor
           2.25 percent of the DRMS share of revenue for the entire 7 years of the
           CV2 contract, rather than the 5 years the financial advisor contract
           requires. The condition exists because the CV2 contract does not require
           Government Liquidation to stop the financial advisor payments. As a
           result, the financial advisor may receive payments longer than what was
           agreed, with a possible cost to DRMS of about $1.13 million.

Financial Advisor Contract
    DRMS awarded financial advisor contract SP4410-97-C-1000 to
    Kormendi-Gardner Partners on December 18, 1996. The contractor provided
    financial advisory services to DRMS for assets that would be included in one or
    more DRMS commercial venture transactions. Services included providing
    immediate capability and experience to assist DRMS in structuring the
    commercial venture transactions.

    The ongoing payments to the financial advisor are compensation for the financial
    advisory services described above. The financial advisor contract requires
    payment to the financial advisor of 2.25 percent of the net proceeds DRMS
    receives from the commercial venture. The payments include 2.25 percent of
    initial payments for inventory and 1.8 percent of net distributions of sales
    proceeds (2.25 percent of the DRMS 80 percent). The proposed commercial
    venture organization, not DRMS, must make the payments. The financial advisor
    provided services related to the commercial venture program for both the CV1
    contract and the CV2 contract.

Duration of Payments per Contracts
    Financial Advisor Contract. The financial advisor contract states, “Contractor
    eligibility for compensation . . . shall run continuously for a period of 5 years
    commencing on the date of [commercial] venture formation.” DRMS awarded
    the CV1 contract on July 14, 1998, and the CV2 contract on June 13, 2001.
    Based on the CV2 award date, the date for cessation of financial advisor payments
    is June 13, 2006.

    CV2 Contract. The CV2 contract is for 7 years. The sections of the CV2
    contract that cover payments to the financial advisor do not contain any
    information about stopping the payments at any time, implying that they should
    continue for the entire 7 years, or until June 13, 2008.

    Results of Discussions With DRMS Personnel. DRMS personnel agreed that a
    problem existed, and they have been working to correct it. DRMS personnel
    stated that they have notified the financial advisor that compensation for property
    awarded under CV2 will continue through June 12, 2006.

                                        36
Effect of Ambiguity of Duration of Payments
           If DRMS does not address the ambiguity, payments to the financial advisor are
           likely to continue for the 7-year duration of CV2 even though the payments
           should have been limited to 5 years. The additional payments would come out of
           money that DRMS would otherwise receive in initial payments for inventory and
           monthly distributions of sales proceeds. The amount of money depends on future
           events and cannot be determined at this time. For a rough estimate, Table 6
           shows that the FY 2002 payments to Kormendi-Gardner Partners, for initial
           inventory payments and sales proceeds distributions, were $565,425.
           Approximately 2 extra years of payments at that level would be about
           $1.13 million.


                        Table 6. Payments to Financial Advisor for CV1 and CV2

                                            FY 97     FY 98      FY 99           FY 00    FY 01    FY 02

           Initial Payments                   $*14      $*14       $*14           $ *14    $ *14    $ *14
           Commission Payments                 *14       *14        *14             *14      *14      *14

             Total Annual Payments            $ *14     $*14       $*14           $*14     $*14     $*14



Recommendation and Management Comments
           E. We recommend the Commander, Defense Reutilization and Marketing
           Services, Defense Logistics Agency direct that Government Liquidation stop
           making payments to the financial advisor, effective June 13, 2006.

           Management Comments. The Deputy Director, Logistics Operations, DLA
           concurred stating that the financial advisor had been notified that compensation
           for property awarded under the first commercial venture contract, awarded
           July 14, 1998, ceased on July 13, 2003, and that compensation for property
           awarded under the second commercial venture contract, awarded June 13, 2001,
           would cease June 12, 2006. However, the financial advisor had hired legal
           counsel, and DRMS was reviewing the legal issues the financial advisor raised.




14
     This figure represents contractor proprietary data that has been deleted.

                                                        37
  Appendix A. Scope and Methodology

Scope and Methodology
    We interviewed officials from DLA, DRMS, and Government Liquidation to
    obtain background information, NSN data, and end-use certificate processing
    information, as well as revenue and cost figures. We reviewed the Federal and
    DoD regulations to identify criteria that pertain to sales contracts and property
    disposal. We identified background information on DLA, DRMS, and the
    commercial venture program. We reviewed both the CV1 and CV2 contracts to
    determine contract specifications and costs. The documents we reviewed were
    dated February 1996 through April 2003. We reviewed the financial advisor
    contract; Government Liquidation payroll documents; Government Liquidation
    lease agreements; Government Liquidation initial payments for property;
    Government Liquidation Monthly Reports to DRMS; Government Liquidation
    quarterly reports to DRMS; and other documentation on Government Liquidation
    expenditures. We reviewed Government Liquidation sales and inventory
    procedures and examined a sample of noncompetitive and reduced-competition
    sales.

    We performed this audit from November 2001 through August 2003 in
    accordance with generally accepted government auditing standards.

    We selected judgmental samples of contractor cost categories, property items
    disposed by DoD, and noncompetitive and reduced-competition sales.

    For contractor costs, we judgmentally chose August, September, and October
    of 2001 during a visit to Government Liquidation. We examined trial balances of
    expense accounts and selected accounts with the heaviest activity for those
    months. For the selected accounts, we examined support for the expenses. For
    October, we examined the actual cash flow, on which the contractor-reported
    costs are based, in relation to the amounts posted to expense accounts anmd did
    not find any marked discrepancies.

    For property items that DoD disposed, we obtained from DRMS delivery orders
    of the NSNs sold to Government Liquidation. We compiled the delivery orders,
    derived a list of NSNs with condition codes indicating new or unused condition,
    and requested from DLA a database of demand requirements, backorders,
    purchase requests, and contract orders for the NSNs. We isolated the NSNs with
    demand dollars that exceeded $25,000 and judgmentally selected 44 sample items
    for further examination. The criteria for selection were high acquisition value,
    high surplus amounts, surplus amounts greater than or equal to amounts in an
    open purchase request, constant demand, or low inventory.

    We selected the sample of 28 noncompetitive and reduced-competition sales from
    a Government Liquidation report of private treaty sales for October 2001. The
    judgmental selection was based on extremely high acquisition value, extremely


                                       38
    high or low resale price, extremely high or low sale price in relation to acquisition
    value or cost to Government Liquidation from DRMS, or other unusual
    appearance of the sale.

    Use of Computer-Processed Data. We relied on computer-processed data from
    DLA (Standard Automated Material Management System), DRMS (DRMS
    Automated Information System), and Government Liquidation (One World
    System) provided for identifying NSNs that were turned over to the contractor for
    disposal, resale customers for the disposed material, NSNs DoD recently
    purchased, and the procuring activity for any recent NSN purchases. We also
    relied on Government Liquidation and Levy/Latham Global financial results, as
    reported to DRMS, for contractor results figures and on DRMS financial systems
    for DRMS results before the commercial venture program and continuing related
    DRMS costs since the beginning of the commercial venture program. We
    compared contractor records of payments to DRMS with DRMS receipt records.
    We did not perform a formal reliability assessment of the computer-processed
    data. However, to the extent that we reviewed the data, we did not find any errors
    that would preclude use of the data to meet the audit objective or that would
    change the conclusions in this report. Additionally, we believe we can rely on the
    contractor financial data to some extent because both the CV1 and the CV2
    contracts require an annual financial audit, and the applicable contractor has
    received an unqualified opinion for FY 1998 through FY 2002. Based on our
    own audits of DoD financial statements, we have limited confidence in the DRMS
    financial figures but do not believe any differences would change our overall
    assessment of the results from the commercial venture program.

    General Accounting Office High-Risk Areas. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Inventory Management and Contract Management high-risk areas.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DRMS management controls over contractor costs. Specifically, we
    reviewed the adequacy of DRMS management controls over costs the contractor
    reported. We also reviewed the adequacy of management’s self-evaluation of this
    control.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DRMS as defined by DoD Instruction 5010.40. DRMS
    management controls for contractor costs did not ensure that costs were not
    excessive. Recommendations A.1., A.2., A.3., A.4., and A.5., if implemented,
    will either correct the identified cost control weaknesses by ensuring an
    acceptable return to DRMS or will lead to the termination of the commercial

                                         39
    venture program. Implementation of the recommendations could result in
    monetary benefits, but the amounts are indeterminable because they depend on
    unknown future levels of surplus material that will become available for resale. A
    copy of the report will be provided to the senior official responsible for
    management controls in the DRMS.

    Adequacy of Management’s Self-Evaluation. DLA officials did not identify
    anything below the level of DRMS as a whole, such as the commercial venture
    program, as an assessable unit, and, therefore, did not identify or report the
    material management control weaknesses identified by the audit.

Prior Coverage
    During the last 5 years, the Inspector General of the Department of the Defense
    (IG DoD) has issued three reports discussing DRMS and the commercial venture
    program. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2003-101, “Law Enforcement Support Office Excess
    Property Program,” June 13, 2003

    IG DoD Report No. D-2002-043, “Defense Reutilization and Marketing Service
    Public/Private Competition,” January 25, 2002

    IG DoD Report No. D-2002-025, “Allegations Concerning Defense Reutilization
    and Marketing Service Business Practices,” December 17, 2001




                                        40
Appendix B. Responses to Issues Raised by a
            Small Business Trade Organization
     The second objective of the audit was to evaluate whether the privatization of the
     program has adversely affected small businesses that purchase, sell, and operate
     military surplus aircraft parts. The following issues were brought to our attention
     by a small business trade organization, the National Association of Aircraft and
     Communication Suppliers, Incorporated (NAACS). NAACS is an organization of
     approximately 120 small businesses that represent a broad spectrum of the
     aviation community. NAACS members routinely purchase from DRMS assorted
     spare aircraft parts, place them in their inventories, and look for resale
     opportunities. While all of the allegations NAACS made were true to varying
     degrees, only two (Issue 1, Noncompetitive and Reduced-Competition Sales, and
     Issue 2, Missing and Incorrect Condition Codes and National Stock Numbers) had
     an adverse effect on small business attributable to privatization of the program.
     Issue 4, End-Use Certificates, had an adverse effect on small business but had
     nothing to do with the privatization of the program (finding C). Issue 1 is covered
     in more detail in finding D. The contractor is working to correct the other issue as
     noted under Issue 2 below.

Issue 1. Noncompetitive and Reduced-Competition Sales
     The complainant alleged that in the CV1 and CV2 noncompetitive and
     reduced-competition sales, there are “no assurances that property will be sold
     using full and open competition.” The complainant stated that at one time,
     Government Liquidation intended to discontinue private treaty sales, but the
     complainant was concerned that Government Liquidation might change its mind.

     Audit Results. The issue was substantiated, and the problem was attributable to
     privatization of the program. Government Liquidation has continued to conduct
     noncompetitive and reduced-competition sales, although to a lesser extent than
     the CV1 contractor. As shown in finding D, the level of noncompetitive and
     reduced-competition sales decreased greatly during the first half of FY 2003, but
     DRMS still needs to institute additional controls. The recommendations in
     finding D should correct the problems. Government regulations would prevent
     those types of problems if the Government were still conducting the sales. For
     noncompetitive and reduced-competition sales that have no price competition,
     Government Liquidation does not always have documented justification and
     approval for the lack of competition or documentation of the method of arriving at
     a fair and reasonable price. When price competitions exist in noncompetitive and
     reduced-competition sales, the sales may not be as widely advertised to
     prospective bidders as sealed bid and Internet sales.

Issue 2. Missing and Incorrect Condition Codes and National Stock
   Numbers
     The complainant alleged that Government Liquidation is not always supplying
     condition codes or NSNs on property put up for bids and that the information is

                                         41
     often incorrect when supplied. Without accurate information, the complainant
     alleged that bidders are forced to blindly submit their bids.

     Audit Results. The issue was substantiated as to both missing and incorrect
     information, but only the missing NSNs and condition codes could be attributed
     to privatization of the program. Government Liquidation information on property
     for sale contains incorrect NSNs, but the incorrect NSNs cannot clearly be
     attributed to the commercial venture program in general or to Government
     Liquidation in particular. Both the DRMS Sales contracting Officer and the
     DRMS Small Business Representative believe that any bad data originated in
     DRMS. We obtained copies of the same data that DRMS has provided to
     commercial venture contractors on items turned over for sale in the commercial
     venture program. Obviously incorrect NSNs, containing alphabetic characters,
     are very easy to spot in the data. We, therefore, find the DRMS position, that data
     was also inaccurate before the commercial venture program, probable.

     Although it did not affect a majority of the property as alleged, the absence of
     condition codes and NSNs for items on the Government Liquidation Web site was
     substantiated, was attributable to Government Liquidation, and could have an
     adverse effect on small business. We discovered examples where property listed
     for Internet auction had missing NSNs, condition codes, or both. Specifically, the
     boxes where this information should have appeared were completely blacked out.
     Only one instance of a blank NSN or condition code existed in the data that
     DRMS gives to the commercial venture contractor. Therefore, Government
     Liquidation would be responsible for the blacked-out NSNs and condition codes.
     Government Liquidation acknowledged the problem and is addressing the issue
     through additional training and modification to internal procedures. The sales
     contracting officer agreed to monitor the corrective action. The problem was not
     yet completely resolved as of September 2003.

Issue 3. Disclosure of Winners
     The complainant alleged that, “Government Liquidation does not publish the
     name of the successful bidder,” in contrast to when the sales were conducted by
     DRMS, and the winning bidder’s identity was routinely available to the public.
     The NAACS members want this information publicly released because they want
     to know that the company who outbid them is a legitimate business and that the
     sales are being conducted legitimately. NAACS members feel that disclosing the
     names of winners should promote the exchange of information and sales within
     the industry as well as help to substantiate the legitimacy of the commercial
     venture program in general.

     Audit Results. The issue was substantiated; however, no clear adverse effect on
     small businesses is apparent. Government Liquidation does not publish the
     winning bidder’s name because of concern for the confidentiality of the winning
     bidder’s identity. Although the NAACS took a poll of its members and the
     majority did not object to having their names released as the winning bidder, other
     small businesses may still object. Furthermore, the sales contracting officer
     believed that publishing bidder names would involve a change order to the
     contract, and therefore a cost to the Government, to require the contractor to
     disclose the winning bidder’s name. Because some businesses might object to the

                                         42
     disclosure, we do not believe pursuing such a change to the contract is in the
     interest of the Government. The sales contracting officer also pointed out that
     upon request, Government Liquidation would provide names to the winning
     bidder of companies that wanted to be contacted in regard to the material just
     purchased.

Issue 4. End-Use Certificates
     The complainant originally alleged that, “The DLA implementation of and
     continued use of End-Use Form 1822, through Government Liquidation, presents
     an enormous, insurmountable obstacle for [small businesses] to compete for
     surplus sales conducted by Government Liquidation.” NAACS felt that the End-
     Use Form 1822 imposed obligations on businesses that were illegal, unnecessary,
     and burdensome, and that the form was lacking in clarity and inaccurate with
     respect to the application of export laws. During the course of the audit, NAACS
     representatives told us that they had obtained satisfaction on the original
     complaint through other channels. However, by that time the NAACS
     representatives had become concerned with the length of time it was taking DLA
     to process end-use certificates.

     Audit Results. During the audit, the NAACS worked with the Office of
     Management and Budget to make changes to the end-use certificate. The
     NAACS representatives stated that the results of the meetings were satisfactory.
     We, therefore, did not continue pursuing the original allegations.

     The allegation of delay in processing the end-use certificates was substantiated as
     detailed in finding C. Although the delays in the processing of the End-Use
     Form 1822 are having a negative effect on the commercial venture program and
     the small business customers of Government Liquidation, privatization of the
     program did not cause the problem. The requirement for end-use certificates for
     certain property sales is not restricted to commercial venture arrangements, and
     the problem would exist if DRMS were still marketing the items.

Issue 5. Catalogs
     The complainant alleged that it was difficult to obtain hard copies of sales
     catalogs and that the catalogs often contain “incomplete, insufficient, and
     inaccurate data.”

     Audit Results. Although paper sales catalogs are not as readily available as they
     once were, catalogs are still available, and the effect of the lessened availability
     on small businesses would probably be the same if DRMS were still handling the
     sales. Government Liquidation emphasizes the use of its Web site to promote
     competition and to produce the highest rate of return. The DRMS Small Business
     Representative stated that because of the paperless initiatives of the Government,
     DRMS would also have stopped issuing hard copy catalogs if the commercial
     venture program had not started. In addition, DRMS personnel stated that some
     of the information DRMS provides Government Liquidation is not accurate.
     Sales catalogs are available for download from the Government Liquidation Web
     site, and Government Liquidation personnel stated that catalogs could be obtained
     by fax, mail, or pick-up during the preview period for sealed bid sales.
                                          43
Issue 6. Buyer’s Premium
     The complainant alleged that, “Government Liquidation is adding a 10-percent
     buyer’s premium to each sale, excluding only negotiated sales and term
     contracts.” The complainants question this practice because they never paid a
     buyer’s premium when purchasing surplus parts from DRMS and feel that
     Government Liquidation is not merely occupying the role of a commercial
     auctioneer and should therefore not be allowed to charge the premium.

     Audit Results. The allegation has no particular adverse effect on small
     businesses. Although it is true that Government Liquidation does add a
     10-percent buyer’s premium to sales, the requirement is not restricted to small
     businesses. DRMS receives the same percentage of the premium (78.2 percent)
     as they do of the base amount of the sale.

Issue 7. Sales Tax
     The complainant alleged that, “Government Liquidation is charging successful
     bidders sales tax on their purchases.” The complainant finds this practice
     objectionable because they are forced to pay a substantial amount in sales tax
     without information as to what authority Government Liquidation has for
     imposing and collecting the money. In addition, many NAACS members
     purchase surplus material with the intent of reselling the material later and feel
     that they should be exempt from paying a sales tax.

     Audit Results. The allegation has no adverse effect on small businesses.
     Although it is true that Government Liquidation charges sales tax on each
     nonexempt sale, Government Liquidation is required to do so, handles the funds
     collected correctly, and remits to the appropriate jurisdiction the sales taxes
     collected. Under its Terms and Conditions section, Government Liquidation
     states that the seller is obligated to collect sales tax and that the buyer must
     provide documentation for claiming an exemption. Government Liquidation
     honors exemptions when buyers submit appropriate documentation. Government
     Liquidation charges sales tax because each sale can be traced to an established
     site from which inventory is sold that requires the sale taxed according to state
     and local tax regulations.

Conclusion
     Overall, the commercial venture program does not appear to have an adverse
     effect on small business activity. A contracted study concluded that the CV1
     contract had no negative effects on small businesses, and we determined that out
     of Government Liquidation’s reported top 30 customers, at least 27 were small
     businesses. According to the DRMS small business representative, although
     greater exposure on the Internet may have lessened the previous advantage of
     some small businesses located near disposal facilities, overall the exposure has
     made the excess material available to a greater number of small businesses.
     Although the allegations pointed to some conditions that needed correction, we do
     not believe the conditions would affect small businesses differently from other
     businesses.
                                          44
Appendix C. Contractor Perspective on the
            Commercial Venture Program




                      45
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Director, Defense Logistics Agency Criminal Investigations Activity
   Commander, Defense Reutilization and Marketing Services

Non-Defense Federal Organization
Office of Management and Budget




                                          46
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

Honorable John W. Warner, U.S. Senate
Honorable John M. McHugh, U.S. House of Representatives




                                        47
Defense Logistics Agency Comments




                     49
50
     Final Report
      Reference




      Darkened
      areas of
      this page
      represent
      contractor
      proprietary
      data that has
      been deleted.




     Deleted




51
Darkened
areas of this
page represent
contractor
proprietary
data that has
been deleted.




                 52
     Final Report
      Reference




      Darkened
      areas of
      this page
      represent
      contractor
      proprietary
      data that has
      been deleted.


     Revised




53
54
55
Final Report
 Reference




Revised




               56
57
58
59
Darkened
areas of
this page
represent
contractor
proprietary
data that has
been deleted.




                60
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Robert K. West
Henry F. Kleinknecht
Anella J. Oliva
Tyler C. Apffel
Rebecca L. Yovich
